<html>
<title> - PEACEKEEPERS: ALLEGATIONS OF ABUSE AND ABSENCE OF ACCOUNTABILITY AT THE UNITED NATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                 PEACEKEEPERS: ALLEGATIONS OF ABUSE AND
                    ABSENCE OF ACCOUNTABILITY AT THE
                             UNITED NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

                           Serial No. 114-200

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
        
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                  
 99-758PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                                  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Brett Schaefer, Jay Kingham Fellow in International 
  Regulatory Affairs, Margaret Thatcher Center for Freedom, The 
  Heritage Foundation............................................     4
Aicha Elbasri, Ph.D., author (former spokesperson, United 
  Nations-African Union Mission in Darfur, United Nations).......    25
Mr. Peter Gallo (former Investigator, Office of Internal 
  Oversight Services, United Nations)............................    39
Mr. Jordie Hannum, senior director, Better World Campaign........    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Brett Schaefer: Prepared statement...........................     7
Aicha Elbasri, Ph.D.: Prepared statement.........................    29
Mr. Peter Gallo: Prepared statement..............................    42
Mr. Jordie Hannum: Prepared statement............................    57

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Photographs referenced by Aicha Elbasri, Ph.D..................    90
  Statement from Ms. Beatrice Edwards of the Government 
    Accountability Project.......................................    93
  Proposal for Reform by Mr. Peter Gallo.........................   100
  Statement from AIDS-Free World's Code Blue campaign............   103


                   PEACEKEEPERS: ALLEGATIONS OF ABUSE



                  AND ABSENCE OF ACCOUNTABILITY AT THE



                             UNITED NATIONS

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everybody.
    First of all, let me apologize for being late. We had a 
series of four votes and it has disrupted everyone's schedule, 
but especially yours. So, I do apologize to you for that.
    Today's hearing, examining the consequences of sexual 
exploitation by the United Nations peacekeepers, marks the 
second in the series we are holding this year on the critical 
issue of lack of accountability at the United Nations and its 
subsidiary institutions. It follows our February hearing which 
exposed illicit technology transfers to rogue regimes, 
corruption at the World Intellectual Property Organization, and 
the harassment of whistleblowers who sought to redress these 
wrongs.
    It also follows on the series of hearings that this 
subcommittee held about a decade ago when we examined 
allegations of sexual exploitation and abuse of minors by U.N. 
peacekeepers in the Democratic Republic of the Congo and the 
need for true reform that would end the victimizing of the 
vulnerable by those who are supposed to be the protectors. I 
would note, parenthetically, that as a result of that, we did 
have Jane Holl Lute, who was then working at the United 
Nations, who I think was equally disappointed and frustrated, 
despite her Herculean efforts, to get the U.N. system to 
recognize that the peacekeepers, to a person, have to be 
protectors and never predators.
    Sadly, what was happening in the DRC more than 10 years ago 
today is repeated in places such as Central African Republic 
and in Haiti. At the time of our hearing on the DRC, I noted 
that we were there to examine credible evidence of gross sexual 
misconduct and exploitation of refugees and vulnerable people 
by U.N. peacekeepers and civilian personnel assigned to the 
U.N. peacekeeping mission in the Democratic Republic of the 
Congo.
    These allegations typically involved peacekeepers' sexual 
conduct with Congolese women and girls, usually in exchange for 
food or small sums of money. According to the United Nations, 
these contacts occurred with sickening frequencies and may 
involve girls under the age of 18, with some as young as 11 to 
14 years of age. Even more troubling were the allegations of 
rape, forced prostitution, and demands of sex for jobs by U.N. 
civilian personnel.
    We will hear from witnesses today who will tell us how 
little things have changed and how a culture of turning a blind 
eye and covering pervades the U.N. bureaucracy, not just in the 
Department of Peacekeeping Operations, but in the very U.N. 
entities that are supposed to investigate wrongdoing and ensure 
accountability.
    Perhaps even worse still, we will hear from a witness who 
will tell how in Darfur U.N. peacekeepers stood idly by while 
civilians were killed by Sudanese militias aligned with the 
government and how the U.N. sought to cover up accurate reports 
of what was happening. This is so horrifying that it brings to 
mind the atrocities that were committed in Srebrenica in 1995, 
when Dutch peacekeepers shut their eyes and ears to the killing 
of unarmed citizens, as a matter of fact, facilitated their 
getting on buses in order to go to their horrific deaths.
    I will never forget, soon after that happened we had the 
chief translator who was there with Koratich and the Dutch 
peacekeeping commander. He lost pretty much the entirety of his 
family and couldn't believe the enabling that happened in that 
so-called U.N. safe haven, again, which cost the lives of well 
over 8,000 Muslims. And I have been back to Srebrenica and it 
is a black mark, if ever there was one, on the U.N. efforts.
    What compounds the tragedy today is that peacekeeping is 
essential to healing a broken world. The protectors can never 
be the predators.
    During our February hearing on WIPO I noted that a culture 
of corruption has beset the U.N. and other international 
organizations, and how the sexual exploitation of minors 
occurring in U.N. peacekeeping missions transformed ostensible 
emissaries of mercy into envoys of exploitation. I also stated 
my belief that by shining a light we could help victims, help 
end corruption, bring healing, and, hopefully, true systemic 
reform.
    That is my hope and desire for today's hearing, which will 
be a further catalyst to action on the part of this 
subcommittee, which is why we want to experts to convey your 
best insights and wisdom to us, that by calling attention to 
what is happening will spur reform.
    It is said that the Secretary-General Ban Ki Moon has 
finally awakened to the true extent of the corruption and is 
taking steps to end the culture of impunity and 
dysfunctionality that has characterized U.N. peacekeeping and 
U.N. oversight. I certainly--and I am sure it is shared by our 
distinguished witnesses--hope that that is true, and that it is 
not merely cosmetic.
    The U.N. has laudable and, to be fair, very difficult 
goals, but we must be steadfast in holding the U.N. accountable 
for its action and the way the results, good and bad, of the 
U.N. work. American taxpayers provide more support for the U.N. 
peacekeepers than those of any other country and, with that, we 
in Congress bear a fiduciary onus not only to the taxpayers, 
but also to those innocents in countries who have been harmed 
by the actions more than a few rotten apples.
    I hope that today's revelations and testimony will ensure 
that the spotlight continues to shine on the U.N. and that, as 
a result, what is broken will be fixed and people in need of 
healing will be given respite from their afflictions.
    I would like to now introduce our distinguished witnesses.
    I do believe we should be joined shortly by Ranking Member 
Karen Bass. When she does come, if you don't mind, our 
witnesses, I will turn to her for comments that she might have.
    Let me begin, first, with Mr. Brett Schaefer who is Jay 
Kingham Fellow in International Regulatory Affairs at The 
Heritage Foundation's Margaret Thatcher Center for Freedom. The 
United Nations is one of his areas of expertise. He speaks 
frequently and publishes on issues related to the world body 
and its activities. He regularly addresses business leaders, 
congressional staff, and academics, has testified before 
Congress before, and has appeared on a variety of radio and TV 
programs speaking on these issues. Mr. Schaefer joined Heritage 
in 1995 and worked at the Pentagon as an assistant for 
international criminal court, a policy from March 2003 to March 
2004.
    Then, we would like to go to Dr. Aicha Elbasri, who was the 
spokeswoman for UNAMID, the United Nations-African Union 
Mission in Darfur between 2012 and April 2013. She is the 
winner of the 2015 Ridenhour Prize for Truth-Telling for 
blowing the whistle on the U.N. coverup of atrocities mainly 
committed by Sudan's Government forces, sometimes under U.N. 
watch. Between 2000 and 2013, she held a number of reporting, 
media, and communication positions within the U.N. system in 
New York, the Middle East, and Africa. Dr. Elbasri is a 
published author and has contributed articles to various 
newspapers and magazines in the United States, the UK, France, 
and the Arab Region.
    We will, then, hear from Mr. Peter Gallo, formerly with the 
Office of Internal Oversight Services, the United Nations. Mr. 
Gallo joined the U.N. in March 2011, where he was an 
investigator in the Investigations Division of the Office of 
Internal Oversight Services. Prior to joining the U.N., he 
spent 18 years as an investigator in the private sector in 
Asia, where he was recognized as an authority on money 
laundering. Mr. Gallo was admitted to the practice of law in 
his home country of Scotland, Hong Kong, and in New York. He 
has had a number of articles published on money laundering and 
investigations management, spoken at numerous conferences, and 
taught courses in these subjects as an adjunct lecturer in Hong 
Kong.
    We will, then, hear from Mr. Jordie Hannum who has almost 
20 years of legislative, analytical, and advocacy experience, 
including roles on Capitol Hill, political campaigns, and 
within NGOs. As a senior director of the Better World Campaign, 
he guides its legislative and advocacy efforts around the 
support for United Nations. During his tenure, he has testified 
in front of Congress on the U.N.'s value, traveled to South 
Sudan, researched civilian protection, and written on the 
importance of U.S. engagement in peacekeeping. Previously, he 
worked on a senatorial campaign, a Presidential campaign, and 
here in the House.
    So, welcome to all four of our distinguished witnesses.
    Mr. Schaefer, the floor is yours.

    STATEMENT OF MR. BRETT SCHAEFER, JAY KINGHAM FELLOW IN 
INTERNATIONAL REGULATORY AFFAIRS, MARGARET THATCHER CENTER FOR 
                FREEDOM, THE HERITAGE FOUNDATION

    Mr. Schaefer. Mr. Chairman and other members of the 
subcommittee, thank you very much for the opportunity to come 
here today to discuss the problems and concerns with U.N. 
peacekeeping, including recent allegations of abuse and the 
absence of accountability.
    In my opinion, it is in the interest of the U.S. to have an 
effective United Nations. For this to happen, the U.N. must 
carry out its responsibilities competently and effectively and 
efficiently. It must operate in a transparent and accountable 
fashion. It must hold itself and its employees and 
representatives to the highest standards of conduct. This is 
particularly critical for U.N. peacekeeping where the 
organization sends civilian and uniformed personnel to protect 
and assist the most vulnerable. Unfortunately, the current 
organization falls gravely short.
    First, U.N. peacekeeping is being conducted with 
unprecedented pace, scope, and ambition. These increasing 
demands have revealed ongoing serious concerns and problems, 
including poor transparency, mismanagement and corruption that 
have led to waste, fraud, and abuse in procurement and 
contracting; negligence and disregard that can lead to 
unintended tragedy such as the introduction of cholera into 
Haiti by U.N. peacekeepers; engaging in partnerships with 
governments that are non-democratic, corrupt, or hostile to 
human rights; and depending on peacekeepers to defend civilians 
despite a documented widespread reluctance to respond when 
civilians under their protection are threatened.
    All these problems and others should lead to a stronger 
oversight by an independent inspector general equivalent in the 
U.N., which is currently lacking, and fundamental reevaluation 
of longstanding operations and those with robust mandates in 
situations of conflict to ensure that the missions are 
effective within the capabilities and willingness of the troops 
provided, and achieving their mandates.
    Second, because the U.N. and its employees enjoy broad 
protections and immunities, the organization has an extremely 
heavy responsibility to self-scrutinize, self-police, self-
correct, and punish wrongdoing. Unfortunately, accountability 
in the organization has been lacking.
    Focusing specifically on peacekeeping, the most troubling 
problem is the frequency with which civilian and military 
personnel prey on the very people that they are supposed to 
protect. Last year it was revealed that senior U.N. officials 
tried to bury detailed knowledge of abuses by non-U.N. 
peacekeepers in the Central African Republic. Worst, they then 
tried to fire whistleblower Anders Kompass for sending those 
details outside the U.N., so they might be addressed.
    A U.N.-appointed independent review panel released a report 
in December condemning the U.N. for ``a gross institutional 
failure to respond to the allegations in a meaningful way.''
    Unfortunately, the trends for sexual exploitation and abuse 
by U.N. personnel are going the wrong way. In 2014, there were 
80 allegations. In 2015, the U.N. reported 99 allegations. 
Sixteen of those allegations occurred in 10 peacekeeping 
operations and involved individuals from 25 different nations. 
Thirty allegations involved U.N. personnel in organizations, 
funds, and programs not related to U.N. peacekeeping.
    Last month, however, the Code Blue Campaign announced that 
they had learned of 108 new cases of sexual exploitation abuse 
in the Central African Republic. The problem appears to be 
getting worse, not better.
    The U.N. has responded to this problem through some much 
overdue transparency in identifying the nationalities of those 
accused and announcing a series of changes in how such 
incidents should be reported, investigated, and addressed. The 
Security Council has endorsed the plan, and we have seen 
repatriation of troops and units with patterns of misconduct 
for, I believe, the first time.
    However, the problem has never been the stated intent of 
the organization to address these problems. The problem has 
always been a failure to follow through on those stated plans. 
Specifically, the U.N. effort hinges on a number of suggested 
changes that have been ``requested'' of the troop-contributing 
countries. However, it is far from clear that there is a 
commitment by the troop-contributing countries to implement and 
adhere to those changes.
    Making problems worse, the U.N. also seems to have an 
embedded hostility toward whistleblowers who can serve as a 
critical safety valve for reporting mismanagement and 
misconduct. The fear of reporting wrongdoing undermines the 
effectiveness and integrity of the U.N., and it must be shored 
up.
    Finally, the methodology for assigning the cost of 
peacekeeping disproportionately shifts the costs away from the 
bulk of the membership and onto a relative handful of high-
income countries like the U.S. Specifically, the U.S. is 
assessed over 28.5 percent of U.N. peacekeeping. The least-
assessed countries pay 0.0001 percent of that cost. For the 
peacekeeping budget, the U.S. is assessed more than 185 member 
states combined. The U.S. will be assessed over $2.3 billion 
under this peacekeeping budget. The least-assessed countries 
will be assessed about $8,300. Nearly 80 countries will be 
assessed a total of less than $100,000, and over half the 
membership will be assessed less than $1 million.
    This helps explain why member states are not necessarily 
all that enthusiastic or encouraged to actually conclude 
peacekeeping missions or constrain their costs. They don't pay 
very much for them, and that leads to a lack of incentive for 
them to fulfill their oversight role or to pursue budgetary 
restraint. A long-term solution requires a more equitable 
distribution of the cost of U.N. activities, so that all member 
states have this kind of incentive.
    In conclusion, I want to emphasize the critical role played 
by Congress in U.N. reform issues in the past through the use 
of financial carrots and sticks. In my opinion, Congress can be 
a very effective ally of the executive branch in pursuing U.N. 
reform and pressure the organization to adopt the reforms and 
changes that are necessary and have been illustrated to be far 
overdue with the incidents that we have seen over the past 
year.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Schaefer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
                
                       ----------                              

    Mr. Smith. Mr. Schaefer, thank you very much. I know you 
had a much longer version. Without objection, that longer 
version and those of our other distinguished witnesses, and any 
other materials you would like to introduce into the record, 
will be made a part of the record.
    Mr. Schaefer. Thank you.
    Mr. Smith. Doctor?

STATEMENT OF AICHA ELBASRI, PH.D., AUTHOR (FORMER SPOKESPERSON, 
UNITED NATIONS-AFRICAN UNION MISSION IN DARFUR, UNITED NATIONS)

    Ms. Elbasri. Good afternoon, Chairman Smith, Ranking Member 
Bass, and members of this subcommittee. Thank you for inviting 
me to address you today.
    My testimony will focus on the U.N. coverup of serious 
crimes committed mostly by the Sudanese Government in Darfur 
between August 2012 and April 2013. I would also testify on the 
failure of the U.N. to investigate these charges which led to 
the absence of accountability and the perpetuation of the 
Darfur tragedy.
    Soon after I joined the United Nations-African Union 
Mission in Darfur, known as UNAMID, in August 2012, I received 
a call from a journalist who inquired about reports of violence 
in an area called Tawila in North Darfur. When I checked with 
UNAMID, I was told that the situation was calm. I conveyed this 
line to the journalist, and it turned out to be a lie.
    In fact, 3 days later, I received reports on the 
displacements of hundreds of families in the same area due to 
violent attacks. I immediately alerted my supervisor, Ms. 
Aichatou Mindaoudou, who was the acting chief of UNAMID. Ms. 
Mindaoudou ordered a verification mission which confirmed that, 
between August 24-26, 2012, government soldiers raided three 
villages. For 3 consecutive days they assaulted men and 
children, raped women and girls, destroyed their farms and 
looted their properties. This forced up to 5,000 villagers to 
flee for their lives.
    The government forces attacked these people because they 
suspected them of supporting the rebels, and they 
systematically called them, asked them to identify their 
tribes, and reserved the harshest treatment to the Zaghawa 
tribesmen.
    But UNAMID didn't authorize me to convey any of this 
information to the journalist who asked for it. It did provide 
the Chief of DPKO, Mr. Herve Ladsous, with the confirmation of 
the Tawila attack, but there was no mention of it in the 
Secretary-General's report to the Security Council covering 
this period.
    Although UNAMID leadership expected me to do as I was told 
and ask no questions, I continued to raise concerns about the 
mission reports. Consequently, I faced censorship and 
hostility, especially from Mr. Karen Tchalian, the Russian 
chief of staff of UNAMID who controlled the flow of information 
within the mission as well as the communication with the U.N. 
Headquarters in New York. But Mr. Tchalian wasn't acting alone. 
He enjoyed the support of other senior staff, especially the 
Somali Deputy Joint Special Representative for Operations, Mr. 
Mohamed Yonis, who is now the Foreign Minister of Somaliland.
    One example of how information control played out occurred 
after the Sudanese Government committed a massacre in an area 
called Hashaba from September 25-27, 2012. The Sudanese Air 
Force first dropped bombs on the area, and when the bombing 
stopped, a large group of soldiers and militiamen stormed the 
area. They killed and injured people who were trying to escape.
    Soon after the journalists began inquiring about the 
attack, I recommended that the mission issue a public 
statement, but Tchalian imposed an information blackout, even 
after the mission saw the evidence of the massacre for 
themselves. UNAMID established that at least 39 men, 20 women, 
and 11 children were killed in this attack which was carried 
out by the government forces.
    In addition, Tchalian drafted and compiled a code cable 
that Yonis signed off on October 7 which distorted the facts 
documented by internal reports. They described the attack as 
part of intertribal conflicts over land and resources. They 
attributed the attack to some Arab groups acting in total 
independence from the government and insisted that the Sudanese 
forces were not involved in the attack. By doing so, they 
cleared the government from responsibility for mass murder.
    When I had a conversation with Mr. Tchalian about the 
Hashaba attack on civilians, his response shocked me, and I 
quote, ``So what?'' he told me. ``The Americans flattened 
Fallujah. Why can't the Sudanese Government bomb its own 
people?,'' he told me.
    It was then that I first considered resigning, but my 
supervisor, Ms. Mindaoudou, convinced me to stay and help her 
change things and tell the truth. But, within a few months, I 
realized that there was no place for the truth in UNAMID. The 
instructions given by Tchalian and Yonis to peacekeepers in the 
field didn't change. They told them not to report the 
government bombing unless they had seen the craters themselves.
    As a result, when peacekeepers saw the Sudanese military 
planes hovering over villages, dropping bombs, and when they 
heard loud explosions and saw smoke, they still couldn't 
confirm that the bombing took place. Consequently, the 
deliberate bombardment of civilians would be characterized as 
alleged bombing.
    What made the coverup by Tchalian and Yonis so effective 
was the fact that they were assisted by others in U.N. 
Headquarters in New York. Even when UNAMID troops witnessed and 
took photos of civilians being shot about 2 meters away from 
their own base, by the time the attack was mentioned in the 
Secretary-General's report the civilian deaths were attributed 
to being caught in the crossfire.
    And if you allow me, I can show you just four photos. In 
this photo, on the morning of September 5, 2012 at 7:45, some 
100 armed government militiamen known as the Janjaweed gathered 
around 2 meters away from UNAMID base near Kutum in North 
Darfur.
    Next. Yes, in this one, this photo shows how UNAMID closely 
monitored the militias from its base near Kutum throughout the 
morning of September 5. And you can see how quite close the 
militia and the UNAMID forces were.
    Next. At 11:25 a.m., the militia stopped a group of 
civilians in a truck. They shot dead one man, injured eight 
others, while UNAMID forces were monitoring and taking these 
photos. A few days later, two more victims succumbed to their 
injuries.
    Next, please. Here is the response of the UNAMID. They took 
care of the dead and the injured.
    Next, please. And here is the real problem. This is how 
both the Secretary-General reported on the incidents and the 
press release. The reports of Mr. Ban Ki Moon said about these 
incidents that ``the following day one civilian was killed and 
eight others were injured in the crossfire of a firefight 
between armed militia and government regular forces on the 
outskirts of the town''; whereas, the UNAMID press release 
described this incident on the red line: ``On 5 September armed 
men alleged fired at the local civilians, resulting in 
additional casualties.''
    While it is true that UNAMID concealed many attacks, it 
kept the Chief of DPKO, Mr. Herve Ladsous, informed of the most 
alarming shifts in the war in Darfur. This is some of what Mr. 
Ladsous and others in his department knew and concealed from 
Ban Ki Moon's report to the Security Council: First, the 
government violated the Security Council Resolution 1556 by 
integrating the Janjaweed militias in its own auxiliary forces 
instead of disarming and neutralizing them.
    Second, the Sudanese Air Force deployed attack helicopters 
and Antonov aircraft in Darfur, in violation of the U.N. arms 
embargo.
    Third, the government embarked on the second phase of its 
ethnic-cleansing campaign which targeted the non-Arab ethnic 
Zaghawa population.
    Fourth, crimes committed by the rebels included physical 
assault, abduction, looting, and the possible use of the local 
population as human shields.
    And fifth, the government forces deliberately attacked and 
killed U.N. peacekeepers.
    By hiding these facts, DPKO kept the Security Council in 
the dark, resulting in that body making misinformed decisions.
    After 8 months in UNAMID, the vast and systematic nature of 
the coverup was clear to me. By then, I had reasons to fear for 
my own safety because of threats made by Mr. Tchalian. I 
resigned, left Sudan, and wrote my end-of-mission report in 
May. In this report, I asked DPKO to look into the serious 
violations and concerns I had raised. I received no response. 
So, in August 2013, I formally requested that the U.N. Office 
of Internal Oversight Services, OIOS, investigate the coverup, 
but OIOS also failed to investigate.
    By then, I was working for the U.N. Population Fund known 
as UNFPA, but I knew that I couldn't keep my post if I were to 
expose publicly what I had witnessed. The U.N.'s awful record 
of retaliation against whistleblowers compelled me to resign 
again.
    By April 2014, Foreign Policy Magazine exposed the affair 
based on the documents I had shared with them. This prompted 
the International Criminal Court to call on Mr. Ban Ki Moon to 
carry out a thorough public, independent inquiry. But Mr. Ban 
Ki Moon chose to order a dubious review panel that concealed 
its terms of reference, didn't include a single investigator, 
never set foot in Darfur, and ended up denying the coverup.
    The Secretary-General commissioned a review that became a 
whitewash, and no one was held accountable for misleading the 
international community and the Security Council. And when the 
United States, Britain, and France requested the firing of Mr. 
Tchalian, Russia opposed it. Assured of Russia's and China's 
protection, the Sudanese Government extended its genocide 
campaign to the Nuba Mountains and beyond.
    This is today's U.N., an organization that is increasingly 
failing to bring or keep peace, a rotten system that covers up 
atrocities, attacks whistleblowers, lacks accountability, and 
promotes impunity. Since the organization seems under no 
obligation to be accountable, it is the member states' duty to 
act. Therefore, I respectfully request that this committee 
consider the following reforms: First, establish a truly 
independent investigative entity that is not part of the U.N. 
Secretariat, but reports directly and separately to the member 
states.
    Second, reconsider the leadership of DPKO which has been 
headed by France since 1997. The best way for the U.S. to 
address endless scandals in a failing and broken DPKO and 
ensure the efficient use of U.S. taxpayers' money is to take 
the lead of this critical department.
    Third, look into the State Department's certification 
process. It continues to certify that the U.N. is implementing 
best practice whistleblower protections, despite evidence to 
the contrary, preventing a 15-percent reduction in U.S. 
funding, according to the law.
    And fourth, extend whistleblowers' protection to the U.N. 
peacekeepers police officers, contractors, and victims.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    [The prepared statement of Ms. Elbasri follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
            
                        ----------                              

    Mr. Smith. Dr. Elbasri, thank you very much for your 
testimony and for risking so much, as you have as a 
whistleblower yourself, and for your recommendations. So, thank 
you.
    Mr. Gallo?

 STATEMENT OF MR. PETER GALLO (FORMER INVESTIGATOR, OFFICE OF 
          INTERNAL OVERSIGHT SERVICES, UNITED NATIONS)

    Mr. Gallo. Thank you, Chairman Smith, Ranking Member Bass, 
for this invitation to testify. I am very well aware it is an 
honor and a privilege to be here.
    I worked as an investigator in the U.N. Office of Internal 
Oversight Services, OIOS, for 4 years from 2011 to 2015. I have 
provided you the written statement which summarizes my personal 
experience and which I hope illustrates how accountability 
within the U.N. is inconsistent to the point of being 
nonexistent.
    OIOS was established to be independent and to investigate 
internal misconduct, including sexual exploitation and abuse. 
And the member states expect OIOS to do that. But, 
unfortunately, by a combination of assessments of misconduct 
complaints by other departments and referrals of cases by OIOS 
to other departments, the reporting of misconduct in the 
organization is manipulated.
    Most of what is reported to OIOS is filtered through an 
entirely separate office within the Department of Field Support 
and Conduct and Discipline, who have no mandate to investigate 
anything, but will assess complaints of misconduct they receive 
from field missions.
    That process often results in those complaints being 
dismissed as lacking in credibility. In practice, these 
assessments also identify witnesses who can then be 
discredited, bribed, or intimidated. If the matter must be 
investigated by OIOS, by the time the investigators arrive, 
which will be 3 weeks later, material witnesses have often been 
paid off, retracted their complaints, or disappeared.
    Also, rather than investigating many complaints themselves, 
OIOS often refers them to other departments, and often to the 
very department that has the most to lose if the information 
turns out to be proven true. And I have given you several 
examples of that in my statement.
    It is also no accident that the head of Conduct and 
Discipline, Mrs. Mercedes Gervilla, is married to Michael 
Dudley, the Deputy Director of the OIOS Investigation Division. 
Now the U.N. and the Ethics Office see no conflict in this, but 
the concern is that OIOS will never challenge any assessment by 
Conduct and Discipline that is a complaint is not credible. And 
if a complaint about something potentially embarrassing is 
received, instead of investigating it themselves, OIOS will 
refer it back to the Department of Field Support or somewhere 
where it can be made to disappear.
    What we are seeing with reports of more and more cases of 
sexual abuse by peacekeepers, particularly in the Central 
African Republic, I attribute to one thing, and that is 
attention by the press, particularly as a consequence of the 
Code Blue Campaign. Because of that, reports are being brought 
to the attention of OIOS directly.
    This press attention began last year with the U.N.'s 
attempt to retaliate against Mr. Anders Kompass for having had 
the initiative and the integrity to do something about the 
sexual abuse of children. But the Kompass case also 
demonstrates something else, and that was that Susanna 
Malcorra, who was Ban Ki Moon's chief of staff at the time, was 
taking the decisions and was driving the investigation and that 
shows that OIOS is not independent. It is actually a resource 
used by senior management for political ends. The term I have 
used in the past is that it was a private gestapo, and I will 
stand by that comment.
    OIOS's credibility has been damaged by that and, also, by 
the Nguyen-Kropp and Postica case where Deputy Director Dudley 
was found to have tampered with evidence and then retaliated 
against investigators who reported that. The U.N. only took 
action against one person following that case, and I am pleased 
to say that was me. That was not for evidence tampering. That 
was for making a satirical reference to the evidence tampering 
from a whiteboard that nobody saw.
    A couple of weeks earlier, I had reported another OIOS 
investigator for what I believe was perjury. That was 
overlooked. The Investigations Director, Mike Stefanovic, was 
subject to an investigation for a comment he had made 18 months 
earlier about rats in the New York subway. When he tried to 
bring a countercomplaint against the OIOS unit chief for 
reporting that in bad faith and for misleading the tribunal, 
the U.N. was not interested.
    The concern is that a U.N. staff member who reports serious 
misconduct is committing career suicide, and the Ethics Office 
simply fails to protect them. Now my own experience is detailed 
in the written statement, and I would also draw your attention 
to the Nartey case, when the Ethics Director failed to obey a 
court order to protect a staff member. Now that case was doubly 
ironic because the official responsible for the retaliation, a 
Mr. Barabanov, had earlier been found by OIOS to have illegally 
obtained a U.N. firearm, and the U.N. Director General in 
Nairobi had tried to have him disciplined for that at the time, 
but, instead, it was she who ended up being dismissed.
    That is the reality of accountability in the U.N. It is 
dependent on who you are and who you know, and maybe a third 
one, what you know about who you know. The dysfunction in the 
U.N. cannot be dismissed as a few isolated problems or 
attributed to be a few bad apples. These problems are deeply 
ingrained in the culture of the organization.
    Now I can, and I frequently do, laugh about it, but I am 
not here today because this is funny. It is not a joke for the 
women working in the U.N. who are afraid to report sexual 
harassment. It is not a joke for the member states whose tax 
dollars are embezzled and squandered paying for this charade. 
And it is most certainly not a joke for the women and children 
raped and sexually exploited with near impunity by the 
organization that they must rely on for their very survival.
    It is for their sake, and certainly not mine, that I urge 
you to act and to take control of the investigation of 
wrongdoing by the U.N., because the organization itself has 
proved incapable of policing itself.
    In closing, I would like to thank the committee again for 
inviting me. And I also have to thank you on behalf of the many 
current U.N. staff members. They appreciate your addressing 
this issue, but they cannot say so.
    And I will be happy to take your questions afterwards.
    [The prepared statement of Mr. Gallo follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    
    
                              ----------                              

    Mr. Smith. Mr. Gallo, thank you very much for your 
testimony and for your courage because you have suffered 
retaliation. And thank you for being here.
    Mr. Hannum?

 STATEMENT OF MR. JORDIE HANNUM, SENIOR DIRECTOR, BETTER WORLD 
                            CAMPAIGN

    Mr. Hannum. Thank you, Mr. Chairman and Ranking Member 
Bass, for inviting me to appear before the committee today. I 
used to work on the staff of Congresswoman Connie Morella, and 
it is a pleasure to be back on the House side.
    I now work at the Better World Campaign, which aims to 
highlight the value of a strong U.S.-U.N. relationship. But, as 
your subcommittee knows and as some of the witnesses have 
outlined, there is a cancer within the United Nations; namely, 
sexual abuse by peacekeepers.
    The victims of this abuse are real, as are the 
consequences. Just 2 weeks ago, a 16-year-old girl was alleged 
raped by a Congolese peacekeeper in a hotel room. Hearing 
horrendous reports like these from the Central African 
Republic, it would be natural to demand the withdrawal of all 
U.N. peacekeepers, but this basic instinct to protect needs to 
be balanced against the good that peacekeepers continue to do 
there. The U.N. mission in CAR has played a critical role in 
reducing ethnic violence, facilitating democratic elections, 
and fostering the highest economic growth in 15 years. So, the 
question is, how do we support the vital work being done by 
U.N. peacekeepers in CAR and elsewhere and at the same time 
implement meaningful steps to stop sexual exploitation and 
abuse by peacekeepers? We believe if the U.N. is to root out 
the bad actors, whether they hail from the developed or 
developing world, they must show that their newly-announced 
policies endorsed by the Security Council will be implementable 
with unshakeable resolve.
    This month the Secretary-General took dramatic steps to 
improve transparency, naming and shaming the nations whose 
troops are accused of abuses. He has also kicked out an entire 
military contingent over evidence of widespread and systematic 
abuse, again, a first. Though overdue, these actions are the 
right course.
    Even so, these measures will mean nothing unless they are 
actively and consistently enforced. Further, we argue that for 
those countries where there is evidence of widespread abuse 
they also should be blocked from joining new missions.
    At the same time, this does not mean that the international 
community should accept a weak response to conflict and mass 
atrocities. Rather, we must demand that more countries shoulder 
the load. As it stands, there is a shortage of well-trained 
troops for a growing number of increasingly-complex, dangerous 
missions.
    The significant increase in the size and scope of 
peacekeeping missions, together with the near withdrawal from 
peacekeeping by European and American forces, has taxed the 
ability of the U.N. to recruit the best-trained and equipped 
troops. If peacekeeping is to ultimately address sexual abuse, 
the responsibility must not sit with the U.N. alone. Other 
member states need to answer the bell.
    The United States, in particular, can play an important 
role in the areas of training, accountability, investigations, 
and vetting, as outlined in my written testimony. But I must 
also say that, as we rightly call out the U.N. for its anemic 
response on abuse, we must not lose sight of the overall 
importance of its missions. The U.N. currently oversees 16 
operations with over 100,000 personnel, the largest deployed 
military force in the world. Over the past several decades, 
both Republican and Democratic administrations have strongly 
supported peacekeeping. This is because it can mean the 
difference between life and death in the places it deploys.
    A 2013 study found that deploying large numbers of U.N. 
peacekeepers ``dramatically reduces civilian killings.'' In 
South Sudan, where I know you just were, Congresswoman Bass, 
U.N. forces are currently working to protect nearly 200,000 
civilians. In CAR, Amnesty International just released a report 
saying U.N. peacekeepers have ``saved many lives and prevented 
much bloodshed.''
    In addition, these missions are much less expensive than 
U.S. forces and have the strong support of our military. 
Admiral Mullen, former Chairman of the Joint Chiefs under 
Presidents Bush and Obama, said, ``U.N. peacekeepers help 
promote stability and are very much in our national interest.''
    Now it is true that the U.S. pays the largest portion of 
the U.N.'s peacekeeping budget, but we also wield veto power 
over the size of that budget due to our presence on the U.N. 
Security Council. That special status also puts the U.S. in a 
unique position to push for peacekeeping reform.
    I would further argue that we are best able to pressure the 
U.N. for changes when we are fully engaged and paying our dues. 
As a result, we have been able to move forward many important 
reforms at the U.N. Of most relevance, in March the U.S. 
championed and the U.N. endorsed several of the stringent new 
abuse measures I have just discussed.
    In addition, U.S. engagement at the U.N. has led to vital 
cost-cutting reforms, including reducing the cost per 
peacekeeper by 18 percent and the number of support staff by 
3,000. Thus, if we are to eradicate the cancer within the U.N. 
right now, it is more important than ever that we remain fully 
and dutifully engaged. Only then can we ensure that the scourge 
of sexual abuse and exploitation can be eliminated.
    Thank you.
    [The prepared statement of Mr. Hannum follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony and 
insights.
    Let me begin with some questions, beginning, first, if I 
would, with Dr. Elbasri. The whistleblower protections that you 
have outlined, Congress, in 2014 and 2015 did pass into law. 
And WIPO is pretty much the one, and they don't derive their 
money from us in terms of percentage of our giving. It is from 
other sources. And that was brought out very, very clearly in 
our hearing just a few months ago.
    Why do you think the administration has not tried, or has 
it applied the 15-percent withholding to some of the other 
agencies? And others might want to jump in on this. Because it 
seems to me, when you have a penalty and you fail to use it, it 
is the victims that are the ones who are hurt. That includes 
victims within the U.N. system itself who would like, as Mr. 
Gallo said, to speak out, but, obviously can't because there is 
a fear of retaliation. Is there an enforcement problem on the 
part of the U.S. in terms of applying that law?
    Secondly, when we heard of the allegations, and they turned 
out to be true, of rape and horrific sexual abuse of young 
children in DR Congo, not only did I go there, I went to Goma, 
met with the peacekeepers, met with the government officials 
there, but I also held a series of hearings. We got ironclad 
promises from the United Nations. Kofi Annan issued his zero-
tolerance policy, which looked fabulous on paper. By the time 
we got to the third hearing in the hearing series, we dubbed 
that hearing ``zero-tolerance, zero-compliance'' because it was 
just not being implemented at the tactical and the operational 
level.
    So, I am hopeful that Ban Ki Moon is serious, but you are 
only as good as your chain in command. It would seem--and your 
recommendations, all of you, on this would be very helpful--if 
OIOS is not independent, as you have said, Mr. Gallo, that is a 
huge chink in the armor of protection.
    It seems to me that there ought to be prosecutions of those 
who commit these terrible crimes, and naming and shaming, that 
lasts for a day and, then, the country moves on. There is a 
whole lot of naming and shaming going on at the U.N. all the 
time, but it doesn't have any impact.
    I think disqualification might be a more apt way of 
countries or brigades, or whatever, certainly individuals, and 
the maintenance of a list of people, so others don't get on the 
list again and end up 5 years later being deployed to recommit 
their abuse.
    So, if you could speak to that? How do we get the OIOS to 
be independent again? The enforcement of the U.S. law, how do 
we make that better? Again, a sanction that is not implemented 
is a paper promise that becomes very weak and, then, 
nonexistent in reality.
    The cholera issue, Mr. Schaefer, thank you for bringing 
attention to that. Some of you might want to speak to how well 
peacekeepers are vetted in terms of health to ensure that 
communicable diseases are not brought with them to 
extraordinarily vulnerable populations whose immune systems are 
next to nil who could pick up those diseases, like what 
happened in Haiti.
    I have other questions, but that is an opening. Yes?
    Ms. Elbasri. Thank you. Thank you for these questions.
    Regarding the first one, which is the reduction of 15 
percent of the U.S. contribution and the law that passed 
regarding this issue, it hasn't been implemented widely because 
there is a problem with the U.S. Department of State 
certification process. What happens is that, so far, since the 
law has been adopted 2 years ago, the only case that we have is 
the WIPO case. But many organizations, including the Government 
Accountability Project, documented ample evidence that shows 
that the U.N. is not abiding, is not complying with the 
implementation of best practice whistleblower protections.
    There are many cases that can be communicated to you, drawn 
on this issue. So, we are wondering why the lack of 
implementation of best practice whistleblower protections is 
not documented in this certification process. So, I think it is 
the mechanism, that there is something wrong with the mechanism 
here that needs to be looked at. So, this is the first 
question.
    Regarding the issue of rape and the zero-tolerance policy, 
I think what we hear about right now is the tip of the iceberg. 
Most of the attention is directed toward the troops, the 
countries that are contributing the troops, but the problem is 
much wider than that. We are talking about civilians. Local 
populations, being raped and sexually abused by the 
international peacekeeper police forces, by also the civilians 
within the missions. And we are not hearing the U.N. talking 
about this.
    There is a very important report that came out in 2013 
which clearly said that the information we have, really it is a 
drop in the ocean. Why? Because of this huge reporting 
mechanism, there are problems with the reporting at the U.N. 
and this is across the board, absolutely. And this is across 
the board.
    This is not limited to the DPKO. This is a problem within 
every agency I have worked with. I noticed the same problem. 
The U.N. is not telling the truth about the reality. It is not 
telling the truth about the misconduct of its own troops. It is 
seeing things, but not saying it. And the whole problem starts 
there. If you are not telling the truth, there is nothing you 
can address later on. You will be basically just addressing the 
surface.
    Mr. Smith. Since you were so much involved with it, why the 
coverup of, as you pointed out, the hundreds of Sudanese 
soldiers, up to 150 military vehicles raided three villages, 
and then, you went on to describe the terrible consequences of 
that? Why cover that up?
    Ms. Elbasri. Well, that is exactly what I wanted, a truly 
independent inquiry. I wanted to see why. I mean, there are 
speculations. I can only guess that there are some people at 
the level of the leadership of the mission who have some 
agendas other than the U.N. agendas and the mission. I hope 
that there will be an inquiry about this.
    But there is also a culture at the U.N. to cover up. People 
cover up for different reasons, for saving the image of the 
U.N., for not embarrassing themselves, for keeping their jobs; 
also, for the partnership with dictatorship regimes. There are 
so many reasons for the coverup that need to be addressed.
    So, talking about certain problems and referring to the 
very few bad apples, I think we are not helping the U.N. by 
advancing such a diagnosis. The problem is systematic. It is a 
system problem, not a person problem. It is the U.N. is broken 
today, and addressing an issue has to start with the truth 
instead of assaulting truth and going hand in hand with the 
coverup. The U.N. should be the first to promote truth and 
truth-telling and promoting the truth-tellers instead of 
assaulting whistleblowers.
    Mr. Smith. Can I just ask--and all of you might want to 
respond to this, in addition to the original questions--are 
there instances of individuals, once repatriated, that were 
prosecuted and got significant jail time for their crimes 
against children and women and other vulnerable people?
    Ms. Elbasri. I think there were a few cases in troop 
contributing countries. I believe it was India. But it is 
insignificant if you compare that, of course, with the number 
of the allegations.
    And I just want to touch on the independence of the U.N. 
Honestly, we don't have time, actually, to hold ourselves with 
some illusions. OIOS will never be independent because it 
reports to the Secretary-General; it reports to the U.N. Any 
organization that doesn't report directly and separately to the 
member states will never be independent.
    Thank you.
    Mr. Gallo. Thank you, Mr. Chairman.
    On the subject of the 15-percent budget withholding, I 
think it is important to realize that in the 12 months after 
that was passed the United Nations Appeal Tribunal decided the 
case of Wasserstrom. Mr. Wasserstrom was seriously retaliated 
against over a number of years. The significance of that appeal 
court decision was that, because of the way that the 
regulations were written, which is ST/SGB/2005/21, what should 
happen is that, when the staff member applies for whistleblower 
protection, the Ethics Office makes a recommendation to the 
Secretary-General that he be protected accordingly.
    The Appeals Tribunal decided that, because it was only a 
recommendation that the staff member did not have a legal right 
to challenge the decision of the Ethics Office. That basically 
means that whistleblower protection is a privilege and not a 
right, and it is a privilege which is dependent on, if you 
like, the grace and favor of the Secretary-General, which 
essentially means the 38th floor, which is essentially the 
people you are requiring the protection from. From memory, I 
think that came out halfway through 2014, and I have certainly 
not heard of, I have not seen any documentation, I have not 
heard any rumors of revisions to the legislation.
    The example I have given you in the written statement, in 
order to get whistleblower protection in the U.N., you require 
something called a protected act, which is essentially making a 
report of misconduct or cooperating with an audit or 
investigation. Now, in my case, I applied for whistleblower 
protection, and it was rejected on the grounds that the 
complaint which I had made did not contain evidence.
    With respect, the wording of the regulation says 
``information or evidence.'' My complaint was 2,000 words long, 
referred to a specific email on a specific date by a specific 
person, which I claimed was coercion.
    But the point is that all the Ethics Office has to do is 
dismiss that on grounds of credibility and that it does not 
appear to support a reasonable belief that misconduct has 
occurred, in which case that disables it. It can, then, deem to 
be not a protected act and, consequently, no whistleblower 
protection applies.
    The authority on the statistics for whistleblower 
protection lies with the Government Accountability Project who 
I believe worked out the statistics at the time that it was 
something of the order of like 1 percent of applications for 
whistleblower protection were granted. Okay?
    Mr. Smith. Anybody else? Yes?
    Mr. Hannum. Thank you.
    So, just a couple--on the whistleblower point, we will just 
way that we, the witnesses here have made some excellent points 
that certainly our organization has supported, and I know some 
U.N. officials have said there are key whistleblower reforms 
that need to be made. One, lessening the onus on the 
whistleblower themselves, one providing more confidentiality, 
and, three, also increasing the personal liability toward 
someone who retaliates. We absolutely support those.
    I just want to make a general point, though, on withholding 
just in general, the concept, because it was mentioned in 
testimony, and it has certainly been mentioned before that this 
is the way that we are going to get things done--that we should 
withhold funds to the U.N.
    In general, Democratic and Republican administrations have 
been opposed to withholding as a way to advance reform. In 
2005, the Hyde bill, a centerpiece of that was withholding 
dues. The Bush administration was opposed to it ``because it 
would detract and undermine our efforts to change the U.N.''
    In 2011, the House Committee on Foreign Affairs held a 
hearing where George W. Bush's Ambassador Mark Wallace, who was 
the Representative for U.N. Management and Reform, said that it 
would not be ``wise or beneficial to use withholding funds to 
implement change.''
    Certainly, we believe that the best way to advance change 
is to pay our dues, but, then, to be at the table and pressure 
the U.N. and use our diplomatic leverage. And we have seen the 
benefits of that over the past few years. If you look at the 
Security Council Resolution on sexual exploitation and abuse, 
2272, that was written by the United States, it called for 
things and endorsed the Secretary-General. And many member 
states were opposed to it. But because of our good standing and 
our leverage, we were able to advance it.
    As I mentioned in my testimony, there have been a number of 
important cost-cutting reforms. There were major changes pushed 
by the U.S. Mission this December to changes in how staff 
salaries are calculated. This could lead to hundreds of 
millions in savings. And again, that doesn't happen if we are 
not there at the table in good standing and, then, to say, 
look, we are here, but now we are asking for these changes. I 
think that is why it is important.
    I think in terms of sexual exploitation and abuse, what the 
Secretary-General has called for, the naming and shaming, 
kicking out countries, that is absolutely critical and it is 
something the U.S. has supported. I think it is extremely 
important.
    I also want to address the question on jail time. So, that 
has been a major problem with the U.N., but I would also say 
other armies in terms of just the overall investigations, I 
think, of the investigations which have been found to be 
substantiated. Only in 55 percent has there been any type of 
disciplinary action. That is something in our testimony that 
would call that the U.S. really needs to use its bilateral 
pressure on countries.
    But I would say, sadly, this is a problem for major armies 
and countries. In terms of the French troops and in CAR there 
has been no accountability for what the French troops have 
done, no punishments yet.
    And I saw just a few days ago a report in terms of the U.S. 
military. It was actually looking at Japan, but these were DOD 
documents showing that hundreds of cases of U.S. personnel, 
almost no personnel went to prison, and in 30 cases all they 
got was a letter of reprimand. And this was for rape and sexual 
abuse. So, this is a major problem, but not just for the U.N.
    Mr. Smith. Thank you.
    Mr. Schaefer. Thank you.
    I think you were asking why the administration doesn't hold 
organizations to account for failure to fully implement 
whistleblower protections or to enforce the standards that they 
do have. Mr. Hannum laid out quite well the mindset, which is 
we don't want to upset the apple cart; we don't want to ruffle 
feathers in the organization.
    Oftentimes, what happens is the U.S. administration, 
Republican or Democrat, will have very specific, often 
controversial policy objectives that they want to achieve 
through the organization. In that calculus reform of the 
organization frequently comes second. That is the way it works. 
They have a policy agenda. They want to achieve that. Pursuing 
reform of the organization, whistleblower protections, and 
other changes will perhaps upset other member states and lessen 
the ability for us to get the policy objectives done.
    And that is actually why Congress has a role here. Congress 
can provide perspective and instructions on reform through 
legislation that would require and assist the administration to 
focus--and it doesn't matter whether it is Democrat or 
Republican--on achieving some of these fundamental 
institutional reforms.
    I will point out that OIOS actually was established because 
Congress was threatening to withhold money in 1994. There was 
no inspector general equivalent at all in the U.N. organization 
until the U.S. withheld money, and we withheld it because of 
instances of waste, fraud, and abuse that the Congress at that 
time thought were unacceptable. That threat of withholding 
resulted in fundamental change. And the OIOS, although remains 
inadequate, wouldn't have existed at all without Congress.
    Second, on the sexual exploitation and abuse and the 
Security Council Resolution, if you take a look at that 
resolution, it urges member states to do things. It calls on 
member states to do things. It requests member states to do 
things. It does not instruct the member states to do anything, 
the troop-contributing countries. It is not a binding document 
that forces troop-contributing countries to do anything. It 
asks them to.
    As we have seen in the past, what happens in these 
instances is that the U.N. does just enough to deflect 
attention away from the scandal and the press attention long 
enough for the eyes to go somewhere else, and then, we don't 
see the follow-through.
    The U.N. has had a zero-tolerance policy on sexual 
explotation and abuse for over a decade now. And yet, here we 
are having this hearing, talking about the exact same problems 
that led to that zero-tolerance policy back then. It is a lack 
of follow-through.
    When you have requests from member states--the Secretary-
General's report is like this, too--it has lots of ambitious 
plans, lots of agendas in there that are in development that 
have yet to be concluded, that are projected to be implemented, 
that request the member states to do X, Y, and Z, but it 
doesn't actually require them to do that.
    I am sorry, there was another question. Oh, OIOS 
independence, that is a fundamental problem. The Office of 
Independent Oversight Services, the lack of independence, 
everything has to go through the bureaucracy. When you are 
reporting on the actions of the bureaucracy, yet you have to 
report through the bureaucracy, that is not an independent 
system. You can't expect it to operate in an independent 
fashion under that scenario. It doesn't have an independent 
budget. Therefore, it has to go through the regular system for 
resources, which is very problematic. That needs to be fixed.
    I would also suggest--and I make this suggestion in my 
testimony, I believe--that the U.S. State Department should set 
up a separate IG unit in the State Department's IG Office to 
look specifically at international organizations like the 
United Nations. We are the largest contributor to those 
organizations. We have a very strong interest in making sure 
that taxpayer funds are used well there. I think that we should 
set up a dedicated unit to look into not just peacekeeping, but 
the U.N. system as a whole and have a series of experts set up 
there to do that.
    Thank you very much.
    Mr. Smith. Thank you.
    Ms. Bass?
    Ms. Bass. Thank you very much for your testimony and, also, 
for your courage, all of the panelists.
    I wanted to ask some questions and really kind of focusing 
on what are the solutions. I always have difficulty with the 
idea of the U.S. withholding money, though, because to me it 
seems like that just increases the resentment of the U.S. So, I 
am not really sure how that produces reforms.
    But my colleague here, Mr. Chair, was just mentioning how 
in hearings that have been held before, then all of these 
promises were made and never really enforced. I was wondering 
if the U.S. has continued to raise that within the U.N., and 
are there promises that the U.S. could participate in a 
hearing, too? So, kind of where do we fall in those lists of 
promises?
    And when you mentioned more countries sharing the load, and 
I looked at the numbers for the European countries, how they 
have gone down dramatically, have we, the U.S., raised this 
with the EU?
    So, those are a couple of questions that I would like to 
start with. Then, I have some other questions. I guess I am 
directing it to Schaefer and Hannum.
    Mr. Schaefer. Thank you.
    Yes, the U.S. raises these issues a lot of times. It raises 
them in the Security Council. It raises them in statements when 
the missions come up. It raised them when these press incidents 
happen that bring issues and problems to light. The U.S. makes 
statements and says we need to address this; we recommend that 
we do X, Y, and Z.
    Again, the lack of institutional follow-through and embrace 
of those recommendations or the failure of the organization 
itself to implement what we are calling for is habitual.
    Ms. Bass. Within the----
    Mr. Schaefer. And I will give you a specific example of 
that.
    Ms. Bass. Hold on a second. Within the U.N.'s governance 
structure, because I am not familiar with it, is it possible 
for there to be a resolution----
    Mr. Schaefer. Sure, sure.
    Ms. Bass [continuing]. Demands, that requires that?
    Mr. Schaefer. Yes. There are two different ways to do that. 
One, in terms of U.N. peacekeeping, the Security Council can 
issue a binding resolution instructing all the peacekeeping 
operations how they should conduct themselves and how they 
should conduct their treatment of troop-contributing countries.
    The General Assembly is the legislative body that, in 
essence, instructs the Secretariat on its rules, and the 
General Assembly can pass a resolution telling the Secretary-
General and the Secretariat how to address various matters in a 
very direct way.
    Ms. Bass. So, has the U.S. attempted to do that and it has 
been vetoed by the Security Council or have we not attempted 
to?
    Mr. Schaefer. Generally, to get something through it will 
be watered down, as Mr. Hannum mentioned the resolution that 
the U.S. offered on sexual exploitation and abuse earlier this 
month. Egypt voted against it. They didn't want even the weak 
standards that were included in that resolution to go forward.
    And it is generally a negotiating process. You do have to 
get a certain number of countries to support it, and you also 
have to avoid a veto by the five permanent members to get that 
resolution through in the Security Council.
    In the General Assembly it is even worse. I mean, you have 
to get a majority of the General Assembly to support it, and a 
lot of those countries either aren't interested in 
whistleblower protection policies, for example, or in terms of 
the sense of troop-contributing countries, many of them are 
major troop contributors. And so, they don't want to have the 
standards put into place by the General Assembly that they, 
themselves, may oppose domestically.
    Ms. Bass. Okay. Thank you.
    Mr. Hannum?
    Mr. Hannum. Thank you.
    Yes, a couple of things just in terms of demands. Our 
Director Peter Yeo just put out an op-ed the other day in The 
LA Times talking about--it is called ``No More Rapists in 
Peacekeeping.'' It was quite blunt.
    But the importance of certainly what the Secretary-General 
did in naming and shaming, kicking out countries. But what will 
be critical going forward is to hold firm there, that countries 
with widespread and systematic abuse are not allowed back in, 
that this is absolutely essential and the Security Council 
needs to back it.
    Now, in order for this to be successful, part of the 
problem is peacekeeping operations have been a lot larger, a 
lot more complex, and a lot more dangerous. In places like CAR 
and Mali, when there are demands, the international community 
is saying there is a crisis happening right now, there are not 
that many countries that raise their hands. And so, the U.N. 
can sometimes be in a difficult situation.
    So, a year from now, when there is a crisis, where there 
will be--Burundi or you name it--the U.N. needs to hold firm 
and say countries with a bad record cannot come in, but there 
also needs to be other member states who can fit the bill, who 
are well-trained and well-equipped.
    You are exactly right, the EU 20 years ago we were at 40 
percent of peacekeeping troops. Now that is 6 percent. The U.S. 
20 years ago was about 700 troops. They are now at 70.
    And so, I think the U.S. can help here. It made very 
important strides with the leadership summit last September at 
the U.N. General Assembly. That was important. There were 
40,000 pledges for that. So, I think it will be critical for 
the U.S. to push countries to make that those pledges 
materialize; also, to make sure that countries are actually 
raising their hands for CAR and Mali. So, these things are 
necessary.
    But I would make one other point, just in terms of, well, 
we should just demand this and we should demand that. And we 
can talk about how much the U.S. pays. That is true, but the 
U.S. does not provide that many troops. They are for the most 
part provided by the developing world. And as I said, these 
peacekeeping operations, this is not what it was 20 years ago. 
This is not observing a ceasefire. This is going into a place 
like Mali, which is the frontline on the war on terror, South 
Sudan, where the government is actively targeting you, and 
asking people to go to someone else's civil war and potentially 
die. In Mali, 60 peacekeepers have died in the past 18 months; 
three more died today. These are very dangerous places.
    To just go in and say, ``I need you to do this, this, and 
this,'' that is not going to play particularly well. That 
doesn't mean we take a soft touch and do nothing. We should 
absolutely use our leverage. But, at the same time, to get buy-
in, we need troop-contributing countries to actually want to do 
this. And if we are simply demanding things and, then, saying, 
``Oh, well, the U.S. is doing this,'' you create a north/south 
divide.
    So, we need to also be able to work with countries because 
these peacekeeping missions are increasingly dangerous and 
difficult, and we need well-trained, well-equipped troops to go 
there. If we are making all sorts of demands without particular 
support and working with countries, then we are going to find 
even fewer troops and it is going to be even more difficult to 
address atrocities when they arise.
    Ms. Bass. Well, I was in South Sudan just a couple of 
months ago in November. I went there to see the peacekeeping 
because I had not seen that before. I was extremely impressed 
with the people that were there, the people that I met. And it 
was very clear it was dangerous. As a matter of fact, I think 
the month before I was there several of the peacekeepers had 
been taken hostage. They were released eventually, but it 
wasn't like they were just sitting back and watching.
    One of the things I worry about is some of the countries 
like Burundi, for example, that contribute troops to 
peacekeeping, it seems like it is a way to deal with the 
employment issue in these countries. And so, I worry about 
that.
    I wanted to know what the role is with the AU. So, we 
talked about the EU. What is the role with the AU in terms of 
the accountability and, also, increasing the number of troops 
that are contributed by AU countries?
    Mr. Hannum. Yes. Thank you.
    In terms of the AU, there are a couple of hybrid missions. 
UNAMID is one. The mission in Somalia is another; the UNAMID 
mission supported by the U.N.
    And there is potential, there is promise in some cases to 
say you have got troops who are closer to the action who should 
be there. I think Dr. Elbasri could say that there are 
certainly issues with the AU troops, and there was a paper just 
the other day by Paul Williams talking about some of the 
problems with AU troops, the accountability, training. So, it 
is certainly worthy of consideration, but it is not a magic 
bullet by any stretch.
    Ms. Elbasri. Thank you. Thank you for this question, a very 
important one.
    Regarding the AU, I can just share with you what I saw. 
What I saw there is a huge discrepancy between African 
countries. Between 2012 and 2013, the nations that were 
contributing the largest troops were Rwanda followed by 
Nigeria. If you compare the troops between these two countries, 
you end up really asking questions whether they were both 
Africans. The Rwandan troops were known for being well-trained, 
well-equipped, disciplined; whereas, the Nigerian troops had 
all kinds of problems.
    I saw with my own eyes peacekeepers with holes in their 
shoes, peacekeepers who actually didn't know how to hold the 
weapons, peacekeepers who were not trained at all. And there 
were jokes in the senior management meetings about cooks being 
recruited as peacekeepers.
    So, there are all kinds of problems with the African Union 
countries. As you said, there is an employment issue because, 
as you know, each country that contributes a soldier makes 
$1,000 a month, and you just have to multiply those by the 
1,000 troops they send.
    So, there isn't a commitment from every single country. 
Every single nation is sending troops for a reason, political 
or an economic reason. But one thing is certain. In general, 
there is a huge problem of performance, lack of equipment, lack 
of training, and lack of command.
    The main problem that was faced by UNAMID is the fact that 
the battalions in the field were not responding to the command 
of UNAMID. They were requesting the command of their own 
countries, and there were a couple of countries that were not 
abiding by the command of the force commander in UNAMID. And 
that is something that is not unique to UNAMID. It is a problem 
that has been witnessed in almost every single mission.
    So, it is extremely difficult to work within a unified 
command. But, as far as the African Union troops, there are 
huge problems, capacity problems, political problems, and also 
performance problems. And probably UNAMID is one of the best 
examples one can give.
    Mr. Schaefer. If I could just follow up on that one last 
point, which is the compensation for the peacekeepers, it is 
about $1,400 per month right now. And there are strong economic 
and, also, just practical reasons for troop-contributing 
countries to contribute there.
    First, they often make more money through the compensation 
per troop from the U.N., which is $1,400 a month, roughly, than 
they do for the cost of the peacekeeper themselves. And so, 
that can actually be a plus-up for their own defense budget.
    Sending them on peacekeeping operations is a training 
exercise. It can help professionalize them. It can help assist 
their efforts to bolster the capabilities of their troops. It 
can also serve as a way to get practical experience and 
deployment abroad for their troops. So, there are a lot of 
incentives for troop-contributing countries to engage in U.N. 
peacekeeping.
    And I think it is naive to think that if you just expect 
them and demand that they increase standards for training, if 
you increase standards for enforcement and investigation on 
sexual exploitation and abuse and other problems, that they 
would be completely disincentivized from engaging in this 
process. There are a lot of benefits to this for the troop-
contributing countries, and asking them to increase their own 
standards I think is a very reasonable ask, and you would not 
see a lot of troop-contributing countries decide not to 
participate in the future if you did that.
    Mr. Hannum. If I could just follow up one thing. I mean, to 
be clear, though, it is true they do it for a number of 
different reasons. The total amount works to about $16,000 a 
year. But, yes, there are benefits, but in terms of the reality 
of peacekeeping right now, not a lot of countries are raising 
their hands to go to CAR and Mali. So, they may do it, but they 
also may die there. So, the notion that this is just something 
that they can do because there's trainings--I mean, these 
missions are increasingly dangerous. The highest number of 
missions in history right now, two-thirds are in active places 
of conflict.
    So, absolutely, they do it for all sorts of different 
reasons, but you get what you pay for, too. If we cut this down 
significantly, you are going to have more poorly-trained 
troops. And studies have shown that the worse-trained troops 
there are, the more problems you have.
    So, absolutely, by no means are we saying that we shouldn't 
push for reforms. In the testimony I lay out a number of 
different things that we need to do on training. We have an 
existing framework right now with the GPOI program through the 
State Department. That should be much stronger. That should be 
augmented with more focus on sexual exploitation and abuse.
    Thank you.
    Mr. Smith. Mr. Cicilline?
    Mr. Cicilline. Thank you, Chairman Smith. I, first, want to 
thank you and Ranking Member Bass for calling this hearing 
today and to thank all the witnesses for the work that you are 
doing, for being here today.
    I am very proud to be the co-chair of the Congressional 
Peacekeeping Caucus, which I formed with my colleague Adam 
Kinzinger. And we formed this because we recognize the 
important role that peacekeepers play in maintaining 
international peace and stability and the impact peacekeeping 
missions have on the United States and our own national 
security.
    But we also formed the Caucus with the intention of taking 
a closer look at the areas that are in need of reform. I think, 
like everyone else who has learned about these repeated 
allegations of sexual abuse and exploitation against U.N. 
peacekeeping forces around the world, we are all, I think, very 
concerned about that and really alarmed at the inability of the 
U.N. to effectively prevent this kind of abuse and to hold 
perpetrators accountable when it happens.
    I do think I want to really thank you, Mr. Hannum, for your 
comments because I do think the notion of sort of disengaging 
from the U.N. as an effective way to bring about real reform 
and accountability would be a tragic mistake. In fact, I think 
this is a moment when we have to deepen our involvement and 
really engage in an even more serious way. If we are going to 
hope to see any real progress, it is going to require U.S. 
leadership. And so, I think the notion of not paying our dues 
or not playing an active role will make success in terms of 
reforming less likely. And I appreciate your comments on that.
    My first question really is, it strikes me that, as you 
analyze where U.N. peacekeepers are and who contributes to 
them, without oversimplifying it, my sense is that it is the 
poor countries that provide the troops and the affluent 
countries that supply the money. And it may be that that is 
part of the challenge because it is not surprising that some of 
the poorer countries don't have the same resources for the kind 
of training and professional development of soldiers that more 
affluent countries might have.
    And so, I wonder whether any of you see that question about 
really training, because we can get to the question about 
whistleblowers and accountability in a moment, but preventing 
it from happening I think has to be our first focus.
    My first question really is, is there some role that 
Congress can play that we should be advocating for at the U.N. 
that will really enhance the professionalization and the 
training that is made available to the soldiers who actually 
participate in peacekeeping to supplement what poor countries 
may either not be doing because they can't or not be doing 
because they won't? But we will start with that.
    Mr. Hannum. Yes. Thank you.
    So, there are a couple of things. One, I will say that an 
important first step, you are exactly right, the dynamic over 
the past 20 years is mostly countries from the developing world 
who are providing troops and wealthier nations who are 
financing it.
    A key step that happened this September was the leadership 
summit at the U.N. General Assembly. With U.S. leadership, it 
led to pledges of 40,000 more troops, and China said it would 
provide a standby force of 8,000. Also, importantly, a number 
of enabling assets like helicopters. So, that was key, and 
there just needed to be a greater supply. This was a greater 
supply from a much larger universe of troops. So, that was 
important. Making sure those pledges materialize will be key.
    On the training front, you are exactly right, Congressman. 
This is an opportunity I think for the U.S. We have an existing 
structure, as I said, through the GPOI program, the State 
Department that has trained over 200,000 peacekeepers over the 
last decade. But that training is basic. It is a basic level of 
training, how to hold a gun. And so, certainly, in terms of 
sexual exploitation and abuse, that should be augmented.
    But I think one of the other issues is, again, these 
peacekeeping missions are so much different than they were 20 
years ago, where they were for the most part kind of observing 
ceasefires. Now the challenges in Mali are different than what 
they are in CAR, different than what they are in South Sudan. 
That training really needs to be tailored.
    Again, the U.S. is not going to be providing troops anytime 
soon, but we have such expertise here. I was in South Sudan in 
August and just talking with some U.S. troops there. They said 
just what a difference in influx of just a few troops would 
make just in terms of professionalization.
    But, on the training side, we should really use these 
existing structures--this is not a significant amount of 
resources--but use our existing structures to make sure the 
training is tailored to where they are going and, then, also, 
it addresses certainly the sexual exploitation and abuse.
    Ms. Elbasri. Well, you are right about the general trend. 
It is the poor countries that are contributing troops and 
richer countries that are paying for the peacekeeping budgets, 
although there is a shift I must mention, which is China. China 
is now part of the top 10 contributing countries. It is a major 
change. They are sending more troops to other countries, and we 
have seen it now with South Sudan. Basically, they are sending 
the troops where they have some vested interest to look after.
    But the question that the European and U.S. contribution of 
troops has changed has to do with the change in the makeup of 
the peacekeeping. As you mentioned, quite clearly, the 
peacekeepers are operating in a danger zone, I mean combat 
zones. This is not what peacekeeping is about.
    We have departed from the three core principles of 
peacekeeping, which is impartiality or neutrality, the non-use 
of force unless necessary, and also the consent of all parties 
of conflicts. We have put that aside since 1999 at least, and 
we have been sending peacekeepers without doing anything about 
peace. This is a major problem with peacekeeping today.
    Today, if you look at Mali, we are not talking about 
peacekeepers. These are troops, U.N. troops, that are fighting 
terrorism. Most of the countries that know the region, they 
think that the U.N. has nothing to do with this fight because, 
in doing so, first of all, it doesn't have the capacity; it 
doesn't have the ability. And we are talking about peacekeepers 
who are sent to keep peace, not to fight war and let alone 
terrorism.
    You have a country like DRC, Congo, where the mission has 
been mandated to fight rebels. This has never been part of the 
U.N. mandates. You have other areas where you have the 
peacekeepers running after gangs. This is a huge change for 
peacekeeping. It is alarming.
    And I can tell you that, as far as I am concerned, when I 
left UNAMID, I didn't think of myself as a former peacekeeper. 
I thought of myself as a former warkeeper. In Darfur we didn't 
keep peace. We kept genocide. It is really sad to say that, but 
most of the peacekeeping missions today, they are keeping wars; 
they are keeping conflicts running since 1948.
    If you look at Kashmir, what the U.N. is doing, what is 
called generally frozen conflicts. Whether it is Kashmir, 
Cyprus, or Western Sahara, these are timebombs. We have seen 
recently a major crisis in Western Sahara when Mr. Ban Ki Moon 
walked into the region and, without consulting, without 
visiting Morocco, and completely it has formed into a major 
crisis with the polisario, threatening to go back to holding 
arms.
    These are considered frozen conflicts that the U.N. has 
been keeping for so many decades, but these are timebombs. I 
think what I want to say here is that we should go back to the 
U.N. keeping peace, but bringing in peace first in order to 
keep it, instead of waging wars and keeping wars ongoing.
    Thank you.
    Mr. Schaefer. I just want to echo what she said about the 
type of missions that the U.N. traditionally engaged in versus 
what we are engaged in today, very different operations, very 
different circumstances. And there should be an underlying 
question about whether the U.N. is actually the most suitable 
vehicle for engaging in those types of operations.
    If you take a look at Mali, when did the U.N. get involved? 
It got involved after the French intervention. So, the French 
got in there, they intervened, and, then, they handed it as 
quickly as they possibly could off to the U.N. Well, there 
should be an expectation that, if the French considered it 
enough in their interest to intervene in the first place, that 
maybe they should have a responsibility and an interest in 
seeing it through to the point where a U.N. operation actually 
could responsibly assume those tasks.
    On longstanding operations, I agree. A lot of these 
operations involve situations that are potentially fractious 
and could reignite, but you also have to question yourself, 
what have we been doing? You have a U.N. operation in Kashmir 
since 1949. You have had Cyprus since the 1960s. You have got 
Lebanon since the 1970s; the Syria operation, UNDOF, since the 
1970s; MINURSO since 1991.
    After two, three, four, five, six decades, you have to ask 
yourself, when are we going to see progress being made toward 
resolution rather than just keeping the parties from open 
warfare? We need to be focused on that part of the equation. If 
you could do that, you would have more resources for current 
operations because the troops that are tied up there could be 
moved someplace else, and the resources that are tied up there 
could be moved and applied to more current crises.
    And the final question or the final point I want to make is 
on U.S. training of peacekeepers. I think the U.S. has a very 
important role in training. I think it is very important that 
we do that. I think it is very important that the U.S., in 
particular, do that because our standards and our expectations 
are well laid out and it is what we expect. We want to make 
sure that others hear that message and they implement it in 
terms of their own operations.
    But a key problem, Mr. Hannum mentioned that there are 
200,000 that have been trained under this program. Where are 
they? There is insufficient retention of the people that we 
train. They go in; they go out, or the training lapses and they 
don't adhere to those standards. Retention is a critical point 
of this.
    If we are actually trying to make sure that we have 
peacekeepers available that are trained to the standards that 
we expect, we need to make sure that those peacekeepers are 
actually there, retained and available for deployment. So, that 
is a key element of this that I think needs to be emphasized.
    Mr. Cicilline. If I may, Mr. Chairman, one more question? 
Okay.
    So, there have been a number of suggestions made about 
things we could advocate for at the U.N., maybe a different 
resolution that makes some of this compulsory rather than 
advisory. And I think recognizing it is an international 
organization, that may be difficult, but it is certainly 
something we should consider, and a number of other reforms 
that have been suggested and a number of things that I think 
that we could suggest or press the Secretary-General to do.
    But my final question is, are there any actions that you 
think Congress could take to accelerate the reforms that you 
have all testified today or any other action you would take 
that would help respond to this very serious problem that we 
see with respect to the conduct of the peacekeepers?
    If you had one thing you would recommend Congress to do?
    Mr. Schaefer. Well, we have addressed a number of issues 
here today. OIOS independence is something that we know a great 
deal about, how to do an inspector general unit and make it 
independent. OIOS was established because of congressional 
withholding. I think that we should say exactly what we mean by 
an independent inspector general equivalent there and how that 
needs to be implemented. I would endorse using financial 
withholding if the U.N. proves reluctant on that. It is 
obviously necessary.
    In terms of sexual exploitation and abuse, I think that the 
U.S. should go to the Security Council and demand a compulsory 
resolution saying that troop-contributing countries have to do 
A, B, and C, which they have endorsed and which the Secretary-
General has endorsed. And if they don't follow through with 
that, then, again, I think congressional action is merited 
because the U.N. is 193 member states, but one thing they do 
listen to is financial incentives. And we have seen that 
repeatedly in the past, not just with the OIOS, but with the 
budgetary process in the 1980s, the Helms-Biden changes and 
reforms, and over and over and again.
    I have spoken with Ambassador Wallace. I know he testified 
differently when he was the Bush administration, but privately 
he thinks that financial withholding has a very significant 
impact on the receptiveness of various reforms in terms of U.N. 
bureaucratic procedures and changes.
    Ms. Elbasri. I think for the U.N. to address all these 
issues, the truth has to come out, which we have seen in my 
case and almost every case, the OIOS is incapable of carrying 
out independent investigations. So, we would definitely press 
for a truly independent investigative entity that doesn't 
report actually to the Secretary-General/Secretariat, but, 
rather, to the member states. I think that is a core 
recommendation.
    But, also, I agree with Mr. Schaefer on the financial 
incentive. It is very important to help implement that law 
because at some point we have to show that we are serious about 
the laws that are passed and we are serious about, you know, 
holding the U.N. accountable for mistreating whistleblowers, 
which have become the main channel of knowledge/information 
about what really goes on in the U.N. So, we can't afford these 
retaliations, these continued retaliations against them. It is 
very important to take action there.
    And it is also very important to look at the State 
Department certification process to see what is going wrong.
    Mr. Gallo. Thank you.
    And I would also add my voice to the withholding side of 
the argument, reluctantly as though it may be, and, also, that 
OIOS has to be replaced with a truly independent body. We have 
been focusing on the peacekeeping troops, which present a 
peculiar problem because they are subject to their own national 
disciplines.
    I would draw your attention to a report which I actually 
worked on, I believe it was the later half of 2013, which was 
an analysis of what was reported to OIOS in terms of sexual 
exploitation and abuse cases. What I found was that the numbers 
of reports were coming in equally, such that they were split, 
more or less, 50/50 between the civilian staff and the 
peacekeepers.
    Now, in a typical large peacekeeping mission, you may have 
20,000 relatively-disciplined peacekeeping troops and less than 
2,000 civilian staff and police personnel. So, if you are 
getting equal numbers of reports from there, the problem is, in 
fact, much, much more acute amongst the civilian staff.
    And there is something which can be changed and I believe 
should be changed as a policy decision. That is the waiver of 
privileges and immunities. The system in place at the moment 
relies on the privilege and immunities being waived at the end 
of the process.
    When OIOS carries out an investigation into a rape, for 
example, what are they actually investigating? They are not 
investigating the rape as a criminal offense. They are 
investigating whether that constituted a breach of the staff 
rules for which that staff member may be fired. That can take, 
at the speed at which the U.N. likes to move investigations, 
that could take 5 years. At that point, and only at that point, 
will the organization consider waiving privileges and 
immunities, so that that staff member can be referred to the 
national authorities for criminal prosecution.
    By that time, the witnesses have relocated, can't be found. 
There is no DNA evidence. And where, in fact, is the subject 
himself? He has separated from the U.N. and has returned to his 
home country. So, you are giving a problem to a country like 
South Sudan; ``Go and apply to the Government of Poland for 
extradition to this guy who no longer lives there and has 
probably retired to Spain or somewhere else.''
    One of the things I believe that should be done under a 
reformed investigation agency is that the privileges and 
immunities should be waived at the point in the investigation 
when reasonable grounds to establish that a criminal offense 
has taken place. At that point, the matter becomes a criminal 
matter and it can be referred for criminal prosecution.
    There is still an ongoing role for monitoring for human 
rights abuses and legal defense and everything else that the 
U.N. can do, but, under normal circumstances everywhere else in 
the world, if you have a conflict between a civil action and a 
criminal action, it is the criminal which takes priority, and 
the U.N. is doing it the other way around. If there is a rape 
case, it should be investigated as a criminal case first.
    Mr. Smith. Thank you.
    Mr. Hannum. Thank you very much.
    Sorry. Just one other point on withholding, since there are 
several recommendations. Withholding is not new; it has been 
around. And again, this is something that Democratic and 
Republican administrations have been opposed to. The Bush 
administration was very clear when there was a bill. Its 
central premise was withholding, and they were against it.
    In terms of Mr. Wallace and what he said privately, 
publicly I mean he could have said anything he wanted, and 
publicly he said it would not be wise or beneficial to use 
withholding funds to implement change. So, it is not something 
that has worked well before. We are best placed if we are 
paying our dues and, then, at the table and pressuring.
    In terms of your question, Congressman, on what Congress 
can do, I think the big thing, again, is the U.S. has no 
appetite for the U.S. to provide troops. The U.S. can provide 
technical expertise. It can also provide enabling assets. And I 
think that is key.
    A good example, I was in South Sudan in August and talking 
with U.S.-U.N. folks, and they were talking about medevac and 
casualty evacuation. And due to a lack of assets, one of the 
problems is the U.N. does not have a capability to medevac many 
of its soldiers, meaning someone could go out, be shot in the 
leg, and not be picked up for 4 days. You can imagine in the 
U.S. that would be laughed at, if you couldn't provide medevac 
for soldiers.
    So, what this means in practice is, then, there are fewer 
missions that go out and deploy. And so, you do have this 
hunkering down, which is a major problem with the U.N.
    And I asked them, ``Well, what are we talking about?'' And 
the U.S. person said four helicopters. Four helicopters would 
make a huge difference in our ability to go out there and 
forward-deploy. That means protect civilians and not just kind 
of hunker down.
    So, that is something absolutely this is not a huge ticket 
item, but this is something, I think when the U.S. talks about 
its assistance, it should really look at whether it is 
helicopters. And there are partnerships with the National Guard 
that exist where it can be done and vehicles. These are ways 
that the U.S. could make a big difference.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Just a few followup questions and final questions. And 
thank you again for your time, your expertise. It really is 
helpful.
    We are thinking of drafting a bill, and would invite your 
maximum input as to what it might look like, to try to 
encourage significant whistleblower reform at the United 
Nations. Simultaneous with today, the Foreign Relations 
Committee on the Senate side, of course, is holding a hearing. 
We are very, very concerned about this. So, again, any 
particular thoughts you might have over and above what you have 
included in your testimonies and your responses would be 
greatly appreciated.
    Let me just ask a few final questions. Without objection, 
testimony, written testimony, by Beatrice Edwards from the 
Government Accountability Project will be included in the 
record.
    She points out, very rightly, that whistleblowers are both 
important and vulnerable agents of accountability. And on the 
sexual exploitation and abuse in the missions, she points out 
that allegations are underreported for many reasons, cites some 
of those reasons. She says the official data grossly 
underestimates the problem and, at worst, they actively 
misrepresent the entire issue, which is a very, very 
significant indictment of the validity of what is happening on 
the ground.
    And then, she points out that cronyism and nepotism is 
especially pronounced in its oversight offices. These personnel 
constitute networks through which managers protect each other 
and themselves from accountability. Relatives and friends 
occupy high-level positions where they also avail themselves of 
the exemptions joined by U.N. officials from external scrutiny. 
Your thoughts on that?
    Secondly, I do believe sanctions should be prudently and 
judiciously applied in our civil rights law certainly and any 
other time we mean business. I am the prime author of the 
Trafficking Victims Protection Act, which was opposed, most of 
it, by the Clinton administration, although Bill Clinton signed 
it at the end. But I held the hearings and we heard from 
Secretary Koh, Harold Koh, who didn't even want the TIP Report. 
He just wanted the human rights reports to have enhanced 
reporting on trafficking, no TIP office, and no sanctions.
    My belief is--and, thankfully, it was a bipartisan belief--
was that you have got to have a penalty phase, particularly in 
human rights law, or else everybody will be onboard, but 
implementation will be less than stellar, if not outright 
disappointing. Thankfully, we do have a broad consensus now as 
to why the Trafficking Victims Protection Act should be fully 
embraced, including its sanctions regime.
    But, again, I think--and I take your point--withholding 
should be used. You would disagree with this, but I think it 
did get us to the OIOS, I believe.
    I remember when Dick Thornburgh testified in the 1980s, the 
former Attorney General. I was at those hearings. And he could 
not have been clearer of the need for inspector generals that 
are robust and independent, which still we are striving in some 
way to achieve, which has not happened.
    So, you might want to speak to this statement, again, by 
Beatrice Edwards.
    Dr. Elbasri, your third point, what would an independent 
judicial body look like? Maybe any or all of you might want to 
touch on that as well, because I think that should be a policy 
goal for these whistleblowers, and just to bring accountability 
to the U.N.
    Your fourth point about the U.N. DPKO being run by French 
leaders and the need for reform there, if you could elaborate 
on that as well? Obviously, Kofi Annan had that job once, and 
we have Rwanda. As a matter of fact, I even chaired hearings 
when we had the famous fax and Lieutenant-General Dallaire as 
well, who talked about what could have been, had they only been 
responsive to what was set before them in terms of an impending 
genocide in Rwanda.
    But why that would make a difference? I think you are 
suggesting in your testimony it ought to be us; it should be 
the United States perhaps to take that. If you could elaborate 
on that?
    And then, on military training, in 2003 and 2005, I did the 
reauthorizations of the Trafficking Victims Protection Act. We 
put in provisions to provide minimum standards for peacekeeper, 
how is a country doing or not doing relevant to its military? 
Are they adhering to a code of conduct that does not become 
predatory or facilitating trafficking?
    We also had language in there dealing with peacekeeping and 
what is happening in all of the potential peacekeeping 
deploying bodies, from NATO to the U.N., to African Union, to 
others.
    I was in Brazil after our law went into effect. I met with 
a number of Brazilian leaders on TIP in Brasilia. I kept saying 
to them, ``What are you teaching your troops before they are 
deployed?'' So, I finally got the packet, and it was an hour-
long ``this is what trafficking is.'' And it was informative; 
it was interesting. But it didn't have the sense of these are 
what the victims look like; this is what happens.
    And I would say, parenthetically, George Bush did an 
Executive order. And it actually came about because of a Fox 
News reporter who literally walked into my office and said, 
``Take a look at this tape.'' And he had pictures of American 
service personnel in Seoul, South Korea, outside of the so-
called ``juicy bars'' with protection forces outside and inside 
were indigenous South Koreans, women from the Philippines, and 
even Russia, who told him on camera, ``We can't leave here. 
They have taken our passports,'' if they were foreigners, ``and 
we are slaves.''
    Thankfully, Joseph Schmitz, the IG for the Department of 
Defense, at our request, did a global assessment focused first 
on Kosovo and South Korea and came back with a scathing 
indictment of our own military. And then, Bush did a zero-
tolerance and changed the Uniform Code of Military Justice.
    Now I say all that because our military gets it. Whether or 
not they always implement it, I think it is a good record. But 
anything can stand improvement.
    But we need to share those best practices much more 
robustly than we do. I think the TIP office is made up of an 
extraordinarily dedicated group of Foreign Service Officers and 
leaders who can share that expertise with countries.
    And I am not sure, because I have asked--maybe you have 
better insights--does the U.N., does our U.S. Mission in New 
York really utilize TIP for training, especially of these 
peacekeepers, before, maybe even during, and then, after action 
with deployment?
    Mr. Hannum. Just a quick point there. Mr. Chairman, under 
your leadership on the trafficking bill, I think you are 
exactly right that this is an opportunity. We should be, in 
terms of the pressure and from what we outlined a little bit in 
the op-ed, it is that it is troops with widespread and 
systematic abuse, but we should also be looking at other areas 
and, then, putting pressure on those countries. There are 
watchlists. There are watchlists that use rape as a weapon of 
war, children soldiers. We should be using these and making 
sure that countries with terrible track records are not being 
pulled into peacekeeping.
    In terms of the whistleblowing, I will turn it over to 
these folks who obviously know it better than I.
    Mr. Smith. Thank you.
    Ms. Elbasri. On the independence of judiciary, the reason 
it was called for by the governments that come to these 
projects, by other organizations, by many whistleblowers, is 
that the fact that the judiciary at the U.N. is not working, 
just like other institutions. I think that GAP had documented 
that over 400 cases, only 4 percent of the cases were 
recognized by the U.N. as retaliation cases. Even then, nothing 
had happened. There was no recourse for these whistleblowers.
    So, it is exactly like the investigation. Whistleblowers 
need an independent body to look at their case and, also, to 
have access to independent justice in order to address the 
wrongdoing suffered by the U.N. It is a very important cause.
    The second issue--and I am glad that you raised this 
question, this followup question--about the reason why I 
strongly believe that the United States should take care of the 
DPKO and take over the French leadership which has started in 
1997. The reason why I am saying this is that I have observed 
and studied the military doctrine under which the peacekeeping 
is operating since then, since 1997. It is not a U.N. 
peacekeeping doctrine. It is a French military doctrine.
    And what is the doctrine about? It is about, first, 
renouncing to the impartiality, which is a very important 
principle for the U.N. It is also about reversing the use of 
force, which used to be limited to self-defense. But, under the 
French military doctrine, it is the use of force beyond self-
defense. In many cases it is actually an aggressive action.
    The other principle is sending peacekeepers in areas where 
there is no peace to keep. This is called, in terms of 
peacekeeping, the gray areas between peace and war. Frankly, 
these are combat zones.
    So, what we have witnessed since 1997, when the French took 
over DPKO, is a militarization of peacekeeping. You look at 
every single peacekeeping mission that was deployed since then, 
since 1997, and you have two things.
    First of all, it is super-militarized. We are no longer 
talking about blue helmets bringing peace to these areas and 
comforting the population, observing the ceasefire, et cetera. 
We are talking about peacekeepers who are going after gangs, 
rebels, siding with governments, and giving up on every single 
principle of the peacekeeping.
    We are also seeing something else. Most of the peacekeeping 
operations that were deployed recently, they were deployed in 
what is usually called as ``sphere of influence.'' Well, if you 
are a Moroccan-American national like myself, we look at it as 
post-colonial deployment.
    Most of the people are extremely upset about the fact that 
France continues to act like the gendarme of Africa. What we 
have witnessed since 1997 is a country that is not looking 
after the interest of the member states of the U.N., but, 
rather, after the interest of France, at the expense of 
peacekeeping in general.
    So, we ended up, of course, with DRC, the Congo, with the 
regime change, and the U.N. mandates in the Ivory Coast. We 
ended up in fighting war that the U.N. has nothing to do with, 
which is terrorism in Mali. I think we are actually moving into 
a much more dangerous situation if we don't put an end to this 
trend. People in Africa, countries that are plagued with these 
wars, they don't want to see a former colonial power imposing a 
will on the population, siding with dictatorships. And what is 
of most interest is that this affects the image of the U.N. and 
peacekeeping.
    So, it is time for me to see the U.S. really reflect about 
18 years of a French leadership of peacekeeping. It is time to 
draw a line and say, ``Is this what we want?'' Right now, as 
you already said, we are sending peacekeepers to combat zones, 
and this is not what the U.N. peacekeeping is about.
    Thank you.
    Mr. Smith. Go ahead.
    Mr. Gallo. Mr. Chairman, you asked about cronyism. The word 
is absolutely. You cannot have senior people in the department 
who are supposed to be investigating fraud and misconduct who 
have been found to have retaliated, and been found to tamper 
with evidence and investigations. You cannot seriously expect 
members to report anything to them. It is simply not going to 
happen.
    The question of cronyism and everything I believe can be 
addressed by the imposition of an independent body which 
reports. So, you have the investigation agency reporting to the 
General Assembly. That has to be done essentially on a weekly 
basis.
    You asked what would such a body look like. The monitoring 
that it requires to be done is essentially in three areas. One 
of them is in the intake of investigations and the intake of 
complaints. Now at the moment we have a very highly-fragmented 
system. The previous director, Mr. Stefanovic, made enormous 
efforts himself to try to impose a single portal for receiving 
complaints. That is not done. There is no reason why it 
shouldn't be possible in this day and age for all complaints to 
come into one single point. The system was actually purchased 
and is in place. It is just there is a reluctance to use it. 
The reason there is a reluctance to use it is because it makes 
it very difficult to make cases disappear. So, the intake of 
the investigations is something. Of course, the approval as to 
what is going to be investigated and what can be bid has to be 
subject to oversight.
    Mr. Smith. Is confidentiality assured or is it compromised 
in cases, if somebody does make a complaint? How sure are they 
that it is not being shared by email or any other way with 
other people in the building?
    Mr. Gallo. I am not sure that is a major problem. I mean, 
it can be, but it is very difficult to answer on a general 
basis. The reality is in most cases it is fairly simple to 
identify who the complainant was who is really the aggrieved 
party. So, there isn't a major investigative activity to find 
out who to retaliate against.
    As I say, the second issue is the approval of reports as to 
what is going forward and disciplined decisions, the decision 
to actually charge someone with misconduct. Now at the moment 
that is vested in the Assistant Secretary-General of Human 
Resources. And, I have seen cases where staff members have been 
investigated and found to have received bribes and actually 
just been admonished for it and given a letter and told not to 
do it again. Well, that is not actually a disincentive for 
anything.
    But these things can be done, and there is, I believe, a 
compromise which would, I think, satisfy everyone that the 
investigation function can be replaced in such a way that it 
does not require grievous withholding of the budget. If you can 
give me a week or 10 days, I would like to get back to you on 
that one.
    Thank you, Mr. Chairman. Thank you.
    Mr. Schaefer. And the issue of confidentiality, I believe 
with the Anders Kompass case, the Ethics Office was complicit 
in an effort to try to identify him and retaliate against him. 
So, the independence and the confidentiality was certainly a 
problem in that case.
    On the broader issue of resourcing and protection of 
civilians, the U.N. did a study in 2014 which looked into U.N. 
peacekeeping operations with a mandate to protect civilians. 
And they found that, of 570 reported incidences, the 
peacekeepers did not respond in 406, or 80 percent of those 
incidents where civilians were attacked.
    I don't believe helicopters are going to respond or fix 
that problem. That is a lack of will and a lack of dedication 
or a lack of willingness to put themselves in harm's way to 
protect civilians on the part of the peacekeepers and the 
troop-contributing countries.
    Mr. Smith. Is that because the mandate is not robust 
enough?
    Mr. Schaefer. No, the mandate specifically instructs them 
to protect civilians. So, the instruction is there. The troops 
themselves do not meet that mandate. Because this was only on 
those missions where there is a specific instruction from the 
Security Council within the mandate to protect civilians. So, 
this is not a situation where, if only we had better equipment, 
we would have been able to protect civilians. That is not the 
case here. This is a case where there is a distinct lack of 
willingness on the part of the troops to fulfill that part of 
the mandate, and that is the core of the problem.
    The troop-contributing countries got together and they said 
in the Kigali Principles, ``We are going to fix this problem.'' 
I haven't seen any real evidence that they have fixed it, and I 
would be really interested to get a detailed report on exactly 
what has been done and what the real-world impact of those 
principles has been on the missions where this problem was 
reported on the part of the U.N.
    Ms. Elbasri. Very briefly, the other reason why these 
peacekeepers who were deployed under what are called the 
``robust peacekeeping missions,'' whether it is in Mali, in 
DRC, or in Liberia, is that they were just not able to be 
everywhere. Most of the attacks took place in places where the 
peacekeepers didn't have a presence.
    And this takes us to the other problem. We are giving 
people the illusion that the peacekeepers can protect 
civilians, but, in reality, they just cannot. They cannot 
protect all civilians everywhere and every how. It is 
impossible. Only a state can.
    Peacekeepers, even if they have the best helicopters in 
there, they have the best-trained peacekeepers, if they have 
the best willingness to do so, they cannot be everywhere. If 
you deploy them in a place like Darfur, they just can't 
operate. Why? Because in order to shoot at the government 
forces, they need to have the authorization from the 
government. So, this is just a surreal situation.
    Look at every peacekeeping operation. In Darfur, it is 
probably the best example. We are sending peacekeepers to 
protect civilians from the government which is protecting the 
peacekeepers. It just doesn't make any sense. It is impossible 
for the peacekeepers to protect all civilians from a government 
that protects them.
    So, I think the whole framework of peacekeeping is 
completely flawed. It is time to be honest about it. It is time 
to define what is peacekeeping, what the peacekeeping can do, 
what it cannot do. They cannot protect all civilians. All the 
history that we have witnessed in Rwanda, in Srebrenica, and 
also in Somalia showed that. Whether the peacekeepers are best 
equipped, the most robust, or if they are weak, you know, not 
prepared, they just cannot protect all civilians. That is why I 
go back to what I said. What we need is peace before 
peacekeepers.
    Thank you.
    Mr. Hannum. If I could just make one other point, Dr. 
Elbasri and Brett made some very excellent points and 
fundamental points about peacekeeping. And there is a host of 
challenges, and there was a major report just done by the U.N., 
the high-level report calling out some of these.
    And there are challenges with protection of civilians. But 
I do want to point out that there have been studies looking at 
peacekeepers and protection of civilians. There was a 2013 
study by American researchers and Swedish researchers that 
looked at this, and looked at what is the difference between a 
force not there, a small force, and a sufficiently-large force. 
And it found that if there is either a small force or no force, 
that it works out to about 100 civilians a month who are 
killed. If there is a U.N. force of 8,000, that number goes to 
two a month.
    U.N. peacekeepers are not perfect by any stretch, but they 
do often serve an incredibly important role on protection of 
civilians. And there have been a number of other studies about 
reducing incidents of civil war. So, while it is not perfect, I 
do want to say that many peacekeepers do serve honorably and 
make a huge difference in the places where they are deployed.
    Mr. Smith. When you talked about reporting to member states 
as opposed to the 38th floor, in our WIPO hearing it was made 
abundantly clear that the WIPO General Assembly Chairman, 
Ambassador Duque of Colombia, has a report. The United States, 
our Mission, as well as that of Switzerland have asked that it 
be released, and we are still waiting.
    It gets into the area of the theater of the absurd because 
it only brings, I think, dishonor on those who cover these 
things up, as well as it hurts real victims, whistleblowers who 
are trying to do the right thing for the right reasons.
    So, how do we get the U.N. to change that kind of modus 
operandi? Why hasn't Ambassador Duque released that report? I 
mean, does it implicate people, do you think? That would be 
speculation.
    But it is a systemic problem, and how do you compel? 
Getting back again to the idea of withholding, there were a 
number of bipartisan initiatives that led to a huge so-called 
arrearage back in the 1990s that we allegedly owed. And one of 
those was for UNPROFOR, which had a miserable, miserable--let 
me say it again--a miserable record, a very bad mandate. It led 
to Srebrenica and other safe haven debacles. And yet, 
contributing countries were demanding that we get that money, 
including the UK, to them for the UNPROFOR deployment. And yet, 
we withheld it, I think out of very valid reasons.
    Yes, Mr. Schaefer?
    Mr. Schaefer. Let me just say that reporting to the General 
Assembly is not going to be a panacea on this at all. If you 
take a look back at a very concrete example, after Oil for 
Food, the U.S. was able to use that scandal to establish 
something called the Procurement Task Force, which was an 
independent unit to go after procurement fraud in the United 
Nations.
    They were very successful. Their efforts resulted in the 
conviction of several prominent U.N. senior officials. But 
because those officials were of certain nationalities, in the 
case of the Procurement Task, Russian and Singaporean, those 
two countries led an effort in the General Assembly to prevent 
the reauthorization of the Procurement Task Force. They 
eliminated it because there was resentment by the governments 
whose nationals were found to be criminally complicit in 
corrupt schemes at the United Nations.
    So, just reporting to the General Assembly doesn't remove 
the politics from this, which is one of the reasons why I think 
the State Department needs to have its own dedicated unit for 
international organizations in its Inspector General office. At 
least then we can know that you will have some sort of external 
effort to inspect, and the cooperation with that unit needs to 
be made----
    Mr. Smith. How do they overcome, if you don't mind me 
interrupting, the U.N.'s assertion that we have no right to any 
of those documents, which they will assert?
    Mr. Schaefer. They do that with the GAO now.
    Mr. Smith. I know they do it with the GAO, right.
    Mr. Schaefer. Again, this goes back to financial levers. 
How do you force the U.N. to comply with a lot of this? And 
that is, if you don't do it, then we will actually withhold 
money.
    This is one of the reasons why the U.S. Government won't 
follow through on the whistleblower protections, is because 
they know that the organizations want the money. They don't 
want to create discomfort or distrust or ruffle feathers in the 
organization. So, they give the waivers.
    But, if you make financial contributions complicit on 
cooperation in this area, then I think that you will see 
cooperation. They very much want the resources. The U.S. is the 
largest contributor. It is the biggest lever that we have. And 
if we want to see external oversight of the U.N.'s operations, 
then that is the way to go. Otherwise, you will very much see 
resistance.
    Thank you.
    Ms. Elbasri. I just want to echo what Mr. Schaefer just 
said. It is very important to stick to the law and also show 
that, if the U.N. doesn't conduct itself as it should, there 
should be a penalty. This has worked everywhere. I don't see 
why it wouldn't work for the U.N. We haven't tried it. So, 
let's first try it and see. And I am pretty convinced that they 
will take the law, but also whatever recommendation and 
obligations they are under, they will take it much more 
seriously.
    In general, I think the problem with the U.N. right now, it 
is acting like the emperor. They feel, I mean senior managers 
at the U.N. Have you seen any senior U.N. official, whether the 
Secretary-General or other ever resign or pushed to resign? No. 
Why? Because we treat them like the Catholic Church before 
everyone knew what was going on. I think this is a problem.
    I mean, this is one of my colleagues and a U.N. 
whistleblower who made this amazing comparison. You know, if 
you compare the U.N. to the Catholic Church, I think we are 
exactly in the same situation. We are just starting to see, we 
are just starting to talk about what is wrong. For quite a long 
time, we held it as something sacred, as something taboo that 
no one wanted to talk about, because we all love the U.N. As a 
whistleblower, I did what I did because I believe in a better 
U.N., because I believe in a better world. A better world will 
not start until we fix the U.N.
    I know that to fix it we have to be truthful. We have to 
say the painful truth that very few people are ready today to 
hear. I believe that penalty, discipline, taking a firm stand 
is the way to go.
    Thank you.
    Mr. Smith. Again, getting back to the WIPO, one of the 
speculative conclusions that we drew as to why this report has 
not been, it is to protect the Director General of the WIPO. 
Well, if that is not the case, just release it.
    But let me just get my final question, and you have been 
very gracious with your time, and I am very grateful for that. 
What happens to the victims? You, Mr. Gallo, mentioned that a 
number of the sexual exploitation and abuse cases are kept low, 
but they filter through the local conduct and discipline teams, 
which obviously if that is happening, that hurts the victims.
    When I was in the DR Congo, I kept saying, ``What happened 
to those little girls? Where are they? Are they getting any 
kind of assistance, help, compassion, empathy? Or are they just 
left to fend for themselves somewhere?'' Do you know? Does 
anybody know what is happening?
    Mr. Gallo. I believe the ultimate condemnation on that, Mr. 
Chairman, is if you look at the number of officials of the 
U.N., particularly the Office of Legal Affairs, that knew that 
there were children being sexually abused in the Central 
African Republic and did nothing--not only did they do nothing, 
but they obstructed the French in the attempt to investigate 
it. That, to me, is just shocking and intolerable.
    From the point of view of this question, if a complainant 
can actually get the complaint as far as the OIOS, I think that 
is probably half the battle. What you are seeing now with the 
increase in attention focused on the Central African Republic, 
I do not believe that that is a function of decrease of 
discipline. I believe this situation is just coming to public 
attention because the press are interested in it, and the press 
are getting it, raising the attention, such that OIOS cannot 
ignore it.
    But the numbers are still tiny when you look at the total 
number. I think there were 27 complaints from the entire world 
last year. And the only reason that there were 108 found in one 
province of the Central African Republic alone is because 
somebody went out and looked.
    There has been no willingness, there has been no proactive 
enforcement. Nobody actually goes out. Neither the conduct and 
discipline teams or anyone else, OIOS does not have the staff 
to actually go out trying to police these issues.
    And that is why I said, if the staff don't trust the 
investigation service, the whole thing is falling apart at that 
point. One of the questions that I don't like to be asked is 
when staff members ask me, ``Should I report this?'' What am I 
supposed to say? Then they ask me, ``Will I be retaliated 
against for this?''
    The likelihood of you being retaliated against is in direct 
proportion to the importance of what you are reporting. Someone 
who is going to report the fuel pump attendant who takes a 
gallon of kerosene home to sell for beer money or to fuel his 
stove at home, he is going to get prosecuted. They are going to 
throw him to the wolves, but nobody is interested in looking at 
senior officials who are probably bleeding the system dry for 
millions and millions of dollars.
    And what concerns me, and has always concerned me, is not 
so much what OIOS is investigating, but what they are not 
investigating. This comes back to this question of the intake 
function. All right? The number of financial cases that are 
rejected on the grounds that that is not misconduct, it is a 
management issue. ST/SGB/273, which is the mandate which covers 
the mandate for the Investigation Division, includes an 
investigation of mismanagement and abuse of resources. Nobody 
can remember the last time there was an investigation into 
mismanagement of the abuse of resources.
    If you can at least get that far, if people will copy 
reports to their permanent missions, or whatever, I believe you 
are going to see a difference. I believe that is why the 
centralized reporting system is different, because I think you 
are going to see very significant differences in the statistics 
of what is reported if everything is monitored and everything 
is controlled because there is an online tracking system for 
it.
    Mr. Hannum. Yes, I can just echo Mr. Gallo's comments on 
the just outrageous delays and inaction by the U.N. I can't 
speak to everything he said.
    To your specific question, though, can you find out the 
victims, is there support, yes. In the Secretary-General's 
report, in terms of the last report which doesn't include the 
most recent allegations, but it had the number of victims, the 
number who are receiving assistance. I think it was at 13. I 
would be happy to provide it to you.
    So, there are currently victim services provided. That is 
money from the mission that goes to local providers who, then, 
provide the care.
    One of the things the Secretary-General called for was a 
Victim Trust Fund, which could basically bolster that, provide 
more resources. That is currently set up. And actually, for 
those peacekeepers that are kicked out and their payments are 
withheld, that money is, then, used for the Trust Fund.
    There are a number of just important questions on kind of 
the breadth of services that will be required. The General 
Assembly will be having that debate in the next couple of 
weeks. I know this is something that Jane Holl Lute is looking 
very closely at.
    And it is something where, in order for that Trust Fund to 
be robust, it is something where member states would need to 
look at kind of strengthening it. But there are certainly some 
services provided. There needs to be more. But I would be happy 
to provide it to you.
    Mr. Schaefer. Just a few concluding points. One is that 
there is a provision in most U.N. peacekeeping operations. They 
sign the SOFA, which provides for a Standing Claims Commission 
to be set up. These aren't set up. And so, there is really no 
recourse for a lot of people to go and actually lodge 
complaints for damages that are done to them by the 
peacekeeping presence or by the peacekeeping forces themselves.
    This should be mandatory. It should be an automatic step. 
As soon as a mission is set up, those Standing Claims 
Commissions should be set up as well. The U.N. has provisions 
inside of it that sort of allow monetary damages and they cap 
them at a certain level. But in terms of instances of 
criminality where someone is raped and they are seeking 
compensation for the criminal act, I think it is important to 
tie the compensation to the perpetrator.
    If you go to a U.N. Trust Fund, what message are you 
sending to the units themselves? You are saying that the member 
states, or whoever decides to contribute to the Trust Fund, are 
going to be paying the damages that you potentially commit. The 
troop-contributing country or the troops themselves, the person 
that committed the crime needs to be held responsible for the 
compensation for their actions. And that I think is an 
important thing. It would increase incentives for discipline, 
self-discipline, but also discipline by the troop-contributing 
country to make sure that their own troops don't misbehave in 
the way that we have been seeing.
    Thank you.
    Mr. Hannum. Just to follow up, I wasn't saying that the 
Victim Trust Fund should be the end-all. Absolutely, they 
should be punished. I am saying, at the very least, they should 
provide some services because in some places the justice is 
quite slow.
    Mr. Smith. Yes. Thank you.
    Ms. Elbasri. Just about the question what happened to the 
victims, I think this question should be asked of the French. 
Unfortunately, it has been now almost 2 years since they 
learned about the allegations. We were told that they started 
an investigation immediately, which was in July 2014. And so 
far, no French peacekeeper has been held to account. So, what 
kind of an example is France giving the organization when it 
comes to such serious crimes? So, it goes back to the 
leadership of France today that needs to be questioned.
    Thank you.
    Mr. Smith. Again, thank you so much for yours very, very 
wise counsel and insights, and insightful commentary. Your 
thoughts on what a bill, if we can craft such a thing, would 
look like would be very much welcomed. And thank you again for 
your extraordinary service. The hearing is adjourned.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               


              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>
</pre></body></html>
